<html>
<title> - [H.A.S.C. No. 112-27] SOLDIER AND MARINE EQUIPMENT FOR DISMOUNTED OPERATIONS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 112-27] 

         SOLDIER AND MARINE EQUIPMENT FOR DISMOUNTED OPERATIONS 

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 17, 2011

                                     
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

65-594 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
                                     
  
















              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                 ROSCOE G. BARTLETT, Maryland, Chairman
FRANK A. LoBIONDO, New Jersey        SILVESTRE REYES, Texas
JOHN C. FLEMING, M.D., Louisiana     MIKE McINTYRE, North Carolina
TOM ROONEY, Florida                  JIM COOPER, Tennessee
TODD RUSSELL PLATTS, Pennsylvania    GABRIELLE GIFFORDS, Arizona
VICKY HARTZLER, Missouri             NIKI TSONGAS, Massachusetts
JON RUNYAN, New Jersey               LARRY KISSELL, North Carolina
MARTHA ROBY, Alabama                 MARTIN HEINRICH, New Mexico
WALTER B. JONES, North Carolina      BILL OWENS, New York
W. TODD AKIN, Missouri               JOHN R. GARAMENDI, California
JOE WILSON, South Carolina           MARK S. CRITZ, Pennsylvania
MICHAEL TURNER, Ohio                 KATHY CASTOR, Florida
BILL SHUSTER, Pennsylvania
DOUG LAMBORN, Colorado
               Jesse Tolleson, Professional Staff Member
                  Doug Bush, Professional Staff Member
                     Scott Bousum, Staff Assistant



















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Thursday, March 17, 2011, Soldier and Marine Equipment for 
  Dismounted Operations..........................................     1

Appendix:

Thursday, March 17, 2011.........................................    33
                              ----------                              

                        THURSDAY, MARCH 17, 2011
         SOLDIER AND MARINE EQUIPMENT FOR DISMOUNTED OPERATIONS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bartlett, Hon. Roscoe G., a Representative from Maryland, 
  Chairman, Subcommittee on Tactical Air and Land Forces.........     1
McIntyre, Hon. Mike, a Representative from North Carolina, 
  Subcommittee on Tactical Air and Land Forces...................     3

                               WITNESSES

Fuller, BG (P) Peter N., USA, Program Executive Officer, Soldier 
  and Commanding General, Soldier Systems Center, U.S. Army......     5
Kelley, Brig. Gen. Frank L., USMC, Commander, Marine Corps 
  Systems Command, U.S. Marine Corps; and Brig. Gen. Daniel J. 
  O'Donohue, USMC, Director, Capabilities Development 
  Directorate, Combat Development & Integration, U.S. Marine 
  Corps..........................................................     9
Markowitz, David M., Director, Capabilities Integration, 
  Prioritization, and Analysis, U.S. Army........................     4

                                APPENDIX

Prepared Statements:

    Bartlett, Hon. Roscoe G......................................    37
    Kelley, Brig. Gen. Frank L., joint with Brig. Gen. Daniel J. 
      O'Donohue..................................................    61
    Markowitz, David M., joint with BG (P) Peter N. Fuller.......    42
    McIntyre, Hon. Mike..........................................    40

Documents Submitted for the Record:

    DOD Memorandum Regarding Acquisition Category (ACAT) II 
      Designation for the Individual Carbine Capability (IC) and 
      Designation of Milestone Decision Authority (MDA)..........    83

Witness Responses to Questions Asked During the Hearing:

    Mr. McIntyre.................................................    87

Questions Submitted by Members Post Hearing:

    Mr. Bartlett.................................................    91
    Mr. Critz....................................................   106
    Mrs. Roby....................................................   104
    Mr. Wilson...................................................   105
         SOLDIER AND MARINE EQUIPMENT FOR DISMOUNTED OPERATIONS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                          Washington, DC, Thursday, March 17, 2011.
    The subcommittee met, pursuant to call, at 10:34 a.m., in 
room 2118, Rayburn House Office Building, Hon. Roscoe G. 
Bartlett (chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. ROSCOE G. BARTLETT, A REPRESENTATIVE 
FROM MARYLAND, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Bartlett. The Tactical Air and Land Forces Subcommittee 
meets today to receive testimony on Army and Marine Corps 
modernization programs for equipping the dismounted soldier and 
marine.
    The hearing today will provide the subcommittee with a 
better understanding of the holistic approach the Army and 
Marine Corps are using to effectively develop, coordinate on, 
and procure equipment used by the individual soldier and 
marine.
    As I mentioned in my opening statement during last week's 
hearing on Army modernization programs, I believe the number 
one modernization priority is always the individual soldier and 
marine, and those programs should always be adequately 
resourced.
    I want to stress those same points today. There is no doubt 
that the equipment, body armor, and processes that our soldiers 
and marines have and use today are saving lives and has greatly 
improved during this past decade. I commend the witnesses 
before us today for the effort and hard work they have done in 
this area.
    I have often wondered, though, if we would have taken just 
five percent of what was spent on the now-terminated Future 
Combat Systems program and applied it to lessening the weight 
of what our soldiers carry, where would we be today?
    We can certainly appreciate the daunting task that our 
witnesses face in managing these programs. In the case of the 
Army, the PEO [Program Executive Office] Soldier manages 
approximately 477 products and programs that are considered 
individual soldier equipment. However, according to Department 
of Defense criteria, none of these programs or products are 
considered to be a major defense acquisition program.
    This committee will always support continuing to enhance 
the individual soldier and marine's capability and protection. 
However, the price we often pay is even more weight, which 
could impact individual performance.
    Individual riflemen commonly carry in excess of 100 pounds 
of gear on all dismounted missions; some much more than that. 
Excessive equipment weight is a consistent complaint that we 
hear about when we talk to our deployed soldiers and marines. 
They say, make it lighter. Not surprisingly, we are also seeing 
an alarming number of muscular-skeletal noncombat injuries in 
our military hospitals that are placing more and more soldiers 
and marines in nondeployable status.
    It seems that for every good idea in weight reduction, 
there is a good idea for something new to hang on the soldiers, 
not to mention the problem of power, primarily batteries. In 
fact, some have used the analogy of a Christmas tree, where the 
soldier is the tree, and we keep hanging more and more gear on 
the soldier.
    From fiscal year 2011 through 2016, the Army has programmed 
over $2 billion for its Nett Warrior program; an ensemble 
program that consists of several components that are integrated 
into the network and will provide improved situational 
awareness and better understanding of the battlefield to the 
dismounted soldier. The Army expects this to translate into 
soldiers being at the right place at the right time with the 
right equipment, making them more effective, more lethal, and 
more survivable. However, this system adds at least 12 pounds 
to the soldier's combat carrying load and requires at least two 
batteries per day. Does this added capability warrant the 
additional weight?
    So the question we hope to answer today is: How do we 
lighten the soldier and marine combat load, while also 
continuing to maximize the combat effectiveness and capability?
    We also expect to receive updates on the Army and Marine 
Corps body armor program, to include test and evaluation 
processes; current weight reduction initiatives; and the new 
joint Enhanced Combat Helmet, the ECH program.
    I understand the ECH is expected to significantly improve 
the ballistic protection capability from the current fielded 
helmet. I want to emphasize that ballistic protection is only 
one aspect that needs to be addressed regarding helmet 
capabilities. The other aspect, and just as significant, is 
protection from blast and blunt trauma, the primary cause of 
traumatic brain injury, which continues to be the most 
prevalent injury from operations in Iraq and Afghanistan. So we 
look forward to hearing today how the ECH will provide better 
protection from TBI [traumatic brain injury].
    This hearing will also provide the opportunity to receive 
updates on the Army and Marine Corps small arms acquisition 
strategies to include the M4 carbine. I understand the Army is 
preparing to conduct a full and open competition for a new 
individual carbine that could potentially replace the existing 
M4 carbine. Among other things, we expect to learn the details 
of this competition.
    In the end, everything touches the individual soldier and 
marine and consequently impacts them. We must continue to 
provide them with the best possible equipment available.
    [The prepared statement of Mr. Bartlett can be found in the 
Appendix on page 37.]
    Mr. Bartlett. Before we begin, I would like to turn to my 
good friend and colleague from Texas, Silvestre Reyes, for 
opening remarks he may wish to make.
    Mr. Reyes. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being here this morning.
    Mr. Chairman, I was at our border conference, and so I 
asked my good friend Mr. McIntyre to do the opening statement. 
He did a lot of preparation, so I feel bad taking it at this 
time. So, without objection, can I recognize him to make our 
opening statement?
    Mr. Bartlett. Thank you for yielding your time to Mr. 
McIntyre for your opening statement.

 STATEMENT OF HON. MIKE MCINTYRE, A REPRESENTATIVE FROM NORTH 
     CAROLINA, SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

    Mr. McIntyre. Thank you, Mr. Reyes.
    First, I would like to thank our witnesses today for your 
service to our country. All of you, I know, have been directly 
involved in making sure that our soldiers and marines have the 
very best equipment, and firsthand, of course, know the very 
serious responsibility that that carries.
    Let me say, representing a congressional district that sits 
between Fort Bragg and Camp Lejeune, I also understand the 
great need to make sure that those men and women have 
everything that they need to serve our country.
    Thank you, Chairman Bartlett, for having a hearing focused 
on this very important concept and the concern that we have on 
how best we equip our men and women in uniform.
    The war in Afghanistan is often fought, we know, by small 
groups of soldiers and marines in very tough terrain, and they 
often fight outnumbered, so maximizing the capability for each 
one of them is essential. It is also the right thing to do, to 
make sure that none of our folks that are serving us, who have 
trained so well to defend and protect our country, should ever 
be without the proper equipment, but also be able to function 
with that equipment in a practical way that lets them be able 
to perform to the very best of their duty that they have sworn 
to do.
    Just as we want our tanks and our other vehicles to have a 
clear overmatch capability, we also want our individual 
soldiers and marines to have a big advantage, not to see a fair 
fight, but to see an overwhelming opportunity to overcome 
anything that may come their way. How we do that without giving 
the troops more and more equipment that weighs them down, quite 
literally, we know is a difficult challenge.
    The weapons, ammunition, the water, the food and the other 
items that a soldier and marine must carry in combat add up 
very quickly. Add to that the difficult terrain and weather 
conditions, especially in Afghanistan, and we know the task of 
figuring out the right balance becomes even tougher between 
what is necessary to carry into battle, yet what also can be 
lightened in some way or compacted in another way to make it 
more easily accessible and less strenuous when they are there 
to do their job.
    Of the many issues the Army and Marines are trying to deal 
with, two seem to stand out: First, providing protective body 
armor without making the load on a soldier or marine too heavy 
to be effective; secondly, how can we lighten that load of our 
own weapons, ammunition, and other gear without lessening the 
ability for an overwhelming amount of firepower, or being able 
to carry out whatever other duty of combat may be required. If 
we can solve these two key issues, we will go a long way toward 
making our troops more effective than they already are.
    I look forward to learning more about the progress the Army 
and Marine Corps are making in this area. Thanks to you, and 
especially also thanks to those who are out serving even now. 
God bless you.
    Thank you, Mr. Chairman and Mr. Reyes. I yield back.
    [The prepared statement of Mr. McIntyre can be found in the 
Appendix on page 40.]
    Mr. Bartlett. Thank you very much.
    We would like to welcome our witnesses. By the way, while 
listening to the testimony, you might look up on the screen. 
There you see the items that our soldiers carry. The lower left 
is the gunner, who carries 144 pounds. If you look down that 
list of things he carries, there is not one thing that I don't 
think he needs to have, which adds up to 144 pounds. Clearly 
not everybody is a Hulk Hogan. We can't all carry 144 pounds. 
We have got to do something to lessen that load.
    Our witnesses today are: Dr. David M. Markowitz, Director, 
Capabilities Integration, Prioritization, and Analysis, U.S. 
Army;
    Brigadier General Peter N. Fuller, Program Executive 
Officer, Soldier and Commanding General, Soldier Systems 
Center, U.S. Army.
    General Fuller, I understand this is probably your last 
appearance before our subcommittee, that you will be going to 
Afghanistan. Sir, you leave some really big shoes to fill. Your 
successor is going to have a real challenge keeping up. Thank 
you so much for what you have done for the soldier.
    Brigadier General Frank L. Kelley, Commander, Marine Corps 
Systems Command, U.S. Marine Corps;
    Brigadier General Daniel J. O'Donohue, Director, 
Capabilities Development Directorate, Combat Development and 
Integration, U.S. Marine Corps.
    We will proceed with the panel's testimony and then go into 
questions. Without objection, all witnesses' prepared 
statements will be included in the general record.
    Gentlemen, thank you for your service, and thank you for 
being with us today.
    Dr. Markowitz, would you please begin?

    STATEMENT OF DAVID M. MARKOWITZ, DIRECTOR, CAPABILITIES 
      INTEGRATION, PRIORITIZATION, AND ANALYSIS, U.S. ARMY

    Mr. Markowitz. Sir, thank you.
    Chairman Bartlett, Ranking Member Reyes, and distinguished 
members of the subcommittee, thank you for the opportunity to 
appear before you to discuss soldier requirements. My name is 
David Markowitz, and I am the Director of Capabilities 
Integration within the Army G3. The directorate is responsible 
for the review, validation and approval of material 
capabilities.
    Let me briefly overview trends in soldier requirements as 
theater has transitioned from urban mounted operations in Iraq 
to the more dispersed, dismounted operations in Afghanistan. I 
will highlight five individual soldier capability areas.
    One, lethality. Broadly, soldiers in theater have been 
requesting lighter weapons that can effectively engage the 
enemy at the longer ranges seen in Afghanistan. Solutions 
across weapons, ammo, optics and soldier training.
    Two, protection. The Army continues to provide threat-
based, customized ensembles of soldier body armor and 
protective equipment. Our initiative seeks to maintain the 
proper balance between enhancing protection while continuing to 
lighten the soldier's load.
    Three, network. Dismounted and dispersed operations are 
placing increasing demand on getting the network down to the 
individual soldier. The network provides not only 
communications, but situational awareness, access to 
intelligence and support; everything our soldiers expect in the 
cellphone age.
    Four, intelligence, surveillance, reconnaissance. In the 
counterinsurgency fight, it is imperative that forces are able 
to attain and use actionable intelligence at the lowest levels. 
We are fielding a wide range of capabilities from hand-held 
biometrics devices, signals intelligence, and unmanned vehicles 
such as Raven, a soldier-portable air vehicle.
    Five, and finally, counter-IED [Improvised Explosive 
Device] electronic warfare. We are increasingly providing the 
soldier, individual soldier, counter-IED and electronic warfare 
devices, such as explosive analyzers and manned portable 
jamming equipment. These are capabilities we had not normally 
associated with the individual soldier.
    Sir, as you said in your opening comments, our greatest 
challenge is balancing these new, promising capabilities and 
soldier load.
    Thank you for your continued support to our soldiers. I 
look forward to further discussing these issues and answering 
your questions. Thank you.
    [The joint prepared statement of Mr. Markowitz and General 
Fuller can be found in the Appendix on page 42.]
    Mr. Bartlett. Thank you very much.
    General Fuller.

  STATEMENT OF BG (P) PETER N. FULLER, USA, PROGRAM EXECUTIVE 
   OFFICER, SOLDIER AND COMMANDING GENERAL, SOLDIER SYSTEMS 
                       CENTER, U.S. ARMY

    General Fuller. Thank you. Chairman Bartlett, Ranking 
Member Reyes, distinguished members of the subcommittee, on 
behalf of the Army, I, too, want to thank you for giving me the 
opportunity to appear before you so I can discuss what we are 
doing to support our soldiers.
    I also want to thank you for your continued support to the 
Army and to specifically PEO Soldier. You say I have big shoes 
to follow, or people are going to follow with big shoes, or 
however you said it, sir. But I didn't do this. It is the team 
that did it; the soldiers that did it. I just represent them, 
and I appreciate that.
    Specifically with PEO Soldier, we have been striving to 
ensure that our soldiers are lethal, survivable and can operate 
in any environment, as you said. The well-being of our soldiers 
is our number one priority, as I know it is your priority.
    Less than two months ago, Staff Sergeant Giunta stood 
before you to receive the Congressional Medal of Honor for his 
selfless actions on October 25, 2007, while operating with his 
squad in Afghanistan. Prior to Sergeant Giunta's deployment, 
PEO Soldier team fielded Sergeant Giunta and his unit with 
equipment. I submit to you that Sergeant Giunta was able to 
stand before you on that day in January because of our combined 
efforts to do what he needed and to provide what he needed to 
fight in Afghanistan.
    In November of 2006, Sergeant Giunta and his fellow 
soldiers received numerous pieces of equipment to ensure that 
they were lethal, survivable, and could operate in the 
environments of Afghanistan. Their gear include the M4 carbine, 
40-millimeter grenade launchers, rifle optics to enhance their 
lethality, the Army Combat Helmet, the Outer Tactical Vest, 
which is our soft body armor, that had the Enhanced Small Arms 
Protective Inserts--there are hard plates inside--as well as 
ballistic eyewear. We provided this to them to enhance their 
survivability.
    They also received the PVS-14 Night Vision Device. Our 
climbing gear, cold weather gear, and a lot of other items were 
provided to them to ensure they could operate in Afghanistan.
    If Sergeant Giunta were to deploy today to Afghanistan, I 
believe that he would barely recognize some of the equipment we 
are now providing to our deploying soldiers.
    At this time I would like to introduce Staff Sergeant Will 
Corp. If Sergeant Giunta were to deploy to Afghanistan, he 
would be outfitted in the same kit that Sergeant Corp has.
    Just to let you know who Sergeant Corp is, he comes from 
Oklahoma. He enlisted in the Army in 1998 as a military police 
officer. Sergeant Corp is also a wounded warrior. While serving 
in Afghanistan--excuse me, in Iraq in 2006, in June of 2006, he 
was hit with an IED and had an amputation of his lower right 
leg. He then went to the Warrior Transition Unit, and then he 
came to support us at PEO Soldier. He allows us to have this 
feedback as to what do we need to do to ensure that our 
soldiers have feedback into the process to ensure we provide 
them the right kit.
    Ranking Member Reyes, he came from the 978th MP Unit out of 
Fort Bliss, Texas. I just wanted you to also know that.
    Let me just walk through what our soldiers are getting now 
when they go to Afghanistan. They still deploy with the M4, 
which Sergeant Corp has, but now they have our new 855A1 
ammunition. It is an enhanced lethality round, optimized 
specifically to the M4.
    We have lighter body armor in our Improved Outer Tactical 
Vest. We didn't make him wear all the equipment, but the vest 
is setting on the ground right next to him. It weighs 3 pounds 
less than what Sergeant Corp and also Sergeant Giunta would 
have deployed with. It has better fit, better load carrying, so 
the weight that the soldiers are wearing that you see on that 
slide is bettered distributed across their body. In addition--
--
    Mr. Bartlett. I would like to note, he is a very strong 
young man. He picked that up as if it were light. Please, after 
the hearing go down and pick it up if you are here. It is not 
light.
    Thank you.
    General Fuller. Sir, we also have deployed now a light body 
armor plate carrier. It is 15 pounds lighter, and Sergeant Corp 
is wearing that. It just gives them the hard ballistic 
protection without all that additional weight. This lighter 
system was developed based on input we received from soldiers 
such as Sergeant Giunta and such as Sergeant Corp. The plate 
carrier allows our field commanders to better tailor their 
package and their protection to their specific mission.
    Soldiers going to Afghanistan now also deploy with a fire-
resistant combat uniform and combat shirts, and they are 
pretreated with insect repellant. And they are also in a new 
camouflage pattern, which we call OCP, Operation Enduring 
Freedom camouflage pattern, which you see in this color.
    They also deploy with two pairs of mountain boots, and 
these boots are lighter than our previous combat boots. Even 
our machine gun is now lighter. It is 9 pounds lighter. Just to 
name a few items.
    Many of these items where improvements were made because of 
soldiers like Sergeant Giunta and also Sergeant Corp providing 
us feedback as to what needed to be improved so they can 
conduct their missions. Soldier feedback is essential, and one 
of the reasons that this PEO is the only PEO with a command 
sergeant major.
    And Sergeant Corp, please, take a seat. We don't want you 
to stand the whole time here. Sorry.
    The command sergeant major is very important inside our PEO 
because he allows us to maintain contact with soldiers in the 
field, listening to what works, what doesn't work, and what 
they really need to perform their mission.
    An example via the NCO [non-commissioned officer] channels 
that we have just received is that our soldiers want better 
groin protection against IED effects while operating in the 
dismounted mode. We are working through the requirements 
process with Dr. Markowitz and others; but at the same time we 
are rapidly providing several potential solutions to a number 
of our soldiers in Afghanistan for their evaluation.
    Although we believe we are providing soldiers with greatly 
improved kit, it does come with the added weight, as both you 
and Mr. McIntyre talked about. The weight in Afghanistan 
environment impacts both their physical and cognitive 
abilities. Regardless, we are continuing to strive to give our 
soldiers that decisive edge to ensure they are dominant on the 
battlefield.
    To this end, we have deployed a new weapon in limited 
numbers. It is the XM25. It is a counter defilade target 
engagement system. The XM25 is a capability that breaks parity 
during direct-fire engagements, and our soldiers are calling it 
``The Punisher.'' With The Punisher, the enemy can no longer 
shoot at our soldiers and hide behind a wall or something to 
protect themselves from our counterfire. But again, it weighs 
18 pounds.
    We are also trying to find new technologies to provide our 
soldiers with the same protection at a reduced weight. We know 
that Sergeant Giunta's body armor worked as intended because it 
stopped enemy bullets twice, allowing him to continue his 
mission. But when you think about it, what we have done with 
our ballistic armor is we have taken something similar to your 
grandmother's china, wrapped it in Kevlar. And if you want more 
protection, we give you more china and more Kevlar, resulting 
in increased protection, but at a greater weight.
    To find a new lightweight technology, we now have two 
research and development lines dedicated in our fiscal year 
2012 so we can focus specifically on soldier protection items. 
This will allow us that increased focus with these new lines.
    We believe that our soldiers in the operating environment 
benefit from knowing where are they, where are their friends, 
and where is the enemy. We have this capability, and it was 
very clear that when Sergeant Giunta was operating in October 
2007, he would have liked this capability. He was trying to 
find his best friend Sergeant Brennan during the battle, and he 
had to look several places before he was able to determine that 
the Taliban was trying to separate Private Brennan--excuse me, 
Sergeant Brennan from his unit and trying to capture him. If 
Sergeant Giunta had this capability on that day, he would have 
known immediately not only where Sergeant Brennan was, but also 
where was the enemy.
    We have this capability today in limited quantities in 
Afghanistan. We call it Land Warrior. It provides unprecedented 
tactical awareness, as well as significant improvements in the 
soldiers' lethality, survivability and sustainability for our 
dismounted soldiers. They can see their location, the location 
of the enemy, and exchange critical data with other friendly 
ground forces and also our Air Force. It allows our soldiers to 
have that decisive advantage.
    The next increment is called Nett Warrior, as you 
articulated. However, Land Warrior weighs 15 pounds; Nett 
Warrior weighs 12 pounds. We still have not reduced the load of 
our soldier by taking 12 pounds off them as we provided them 
this new capability. We are challenged to maintain this new 
high-tech capability when all soldiers want something like this 
on the battlefield, but we understand that Nett Warrior allows 
us to have that essential step along the path of getting our 
dismounted soldiers into the network. It is allowing us to 
facilitate the technology, the security and capability trades 
that will be necessary to get our dismounted soldiers at a 
lightweight capability. We are going to also look at the 
commercial industry and try to leverage their technologies.
    I once heard someone mention that we had many ``centers of 
excellence'' within the Army and the Department of Defense. 
Within PEO Soldier, we are striving to better communicate and 
collaborate across these centers of excellence, something that 
is critically important, because when one realizes at the end 
everything, as you said, touches or involves our soldier.
    The Army has made great strides, but we are not resting on 
our laurels, and I challenge this committee and I challenge our 
nation to stay focused on our soldiers and their equipment as 
future difficult fiscal decisions are debated and implemented.
    The centerpiece of the Army is its soldiers. My basic 
branch in the Army was armor, and I always thought that the 
tank and its other combat vehicles was the primary purpose of 
the Army. I soon realized when I was riding around in those 
tanks with my crew that the purpose of the Army and the 
strength of the Army is the soldier, not the big-ticket 
platforms. So I ask you to remember the soldier is not an 
accessory on these big-ticket platforms. The soldier is the 
purpose of those platforms.
    Chairman Bartlett, Representative Reyes, distinguished 
members of the subcommittee, I want to take a moment to thank 
you on behalf of the men and women in uniform for all of your 
strong support to the Army, and also the strong support that 
you have provided to PEO Soldier. It has been an honor to serve 
with such professional soldiers, and it has been an honor for 
me to represent them in appearing before you.
    And as you said, this could be my last time I appear before 
you in my position as PEO Soldier. I soon will be wearing the 
exact same equipment that Sergeant Corp has that we field to 
the soldiers. I have complete confidence in its ability to make 
sure that I am lethal, survivable, and can operate in the 
Afghanistan environment. As you said, I am deploying to 
Afghanistan in the summer to work on General Petraeus' staff.
    It is with my sincere thanks that I commend you and your 
professional staff on your unwavering support to the soldier. I 
thank you again, and I look forward to your questions.
    [The joint prepared statement of General Fuller and Mr. 
Markowitz can be found in the Appendix on page 42.]
    Mr. Bartlett. Thank you very much, sir.
    General Kelley.

   STATEMENT OF BRIG. GEN. FRANK L. KELLEY, USMC, COMMANDER, 
MARINE CORPS SYSTEMS COMMAND, U.S. MARINE CORPS; AND BRIG. GEN. 
 DANIEL J. O'DONOHUE, USMC, DIRECTOR, CAPABILITIES DEVELOPMENT 
  DIRECTORATE, COMBAT DEVELOPMENT & INTEGRATION, U.S. MARINE 
                             CORPS

    General Kelley. Chairman Bartlett, Ranking Member Reyes, 
and distinguished members of the subcommittee, thank you for 
this opportunity to discuss the capabilities we have developed 
and are pursing to ensure our marines are effective, survivable 
and expeditionary on the battlefield.
    Our job is to develop capability, provide equipment, and 
integrate this throughout and beyond the MAGTF [Marine Air 
Ground Task Force]. We do that from the perspective that your 
Marine Corps is a strategically mobile, middleweight force, 
optimized for forward presence, and rapid-crisis response.
    Our priorities are our Commandant's priorities. We will 
continue to provide the best trained and equipped marines in 
Afghanistan. We will rebalance our corps and posture it for the 
future. We will educate and train our marines to succeed in an 
increasingly complex environment, and we will keep faith with 
our marines, our sailors, and our families.
    Our job is accomplished by orienting on the individual 
marine, the focal point of our corps. Our goal is to give that 
marine the equipment and confidence to accomplish his or her 
mission successfully. A marine's mission is not achieved as an 
individual, but as an integrated unit. The United States Marine 
Corps is America's expeditionary force in readiness, task-
organized as a Marine Air-Ground Task Force. The expeditionary 
ethos drives the way we organize our forces, train, develop, 
and equip.
    To be a middleweight expeditionary force, our equipment 
must be lightweight, scalable and integrated. Our effort in 
lightening the MAGTF is an intentional, deliberate, disciplined 
and measured response aimed at reducing the size, weight and 
energy required by the individual rifleman.
    Our Commandant has recently stated that we have captured 
overhead efficiencies and savings by focusing on the following 
efforts: buying smarter through acquiring more intelligently; 
working closely and collaboratively with our Army counterparts; 
and streamlining our own operations.
    A tremendous example in our quest to be more efficient and 
effective is captured in the way that we use and produce 
energy. Your Marine Corps is committed to finding ways to be 
more energy efficient. And since 2009, we have aggressively 
pursued efficient energy capabilities that will make marines 
self-sufficient, increase our combat effectiveness, and protect 
lives.
    One program in particular that has contributed to 
lightening the load of the combat marine is the Solar-Powered 
Alternative Energy Solution, or SPAES. On the individual 
marine, over a dozen batteries in six different configurations 
are used at any given time. Centralizing power, standardizing 
that power, and reliably distributing that power has the 
potential to reduce the reliance upon multiple types of 
batteries that are currently used in systems and carried in 
significant quantities as spares, not to mention the 
environmental impacts in waste regarding disposal.
    Solar panels have been fielded to squads as a reusable 
energy source for rechargeable batteries. 3rd Battalion, 5th 
Marines, under the command of Lieutenant Colonel Jason Morris, 
is currently deployed to Operation Enduring Freedom and is 
using SPAES. We have received feedback from theater that 
patrols are leaving the FOBs [Forward Operating Bases] and 
patrol bases for 2- to 3-week periods, currently 3-5, using 
SPAES with the benefit of carrying fewer batteries. Typically, 
a platoon leaving the FOB for that period of time would be 
required to carry a 2- to 3-week supply of batteries. Through 
the employment of SPAES, that requirement has been reduced to 2 
to 3 days.
    Lightening the load is a total Marine effort. It is on the 
mind of every marine and civilian in our corps, an imperative 
issued by our Commandant. We actively seek and listen and take 
input and advice from deployed marines in the field, from 
marines participating in exercises or attending our 
schoolhouses. We even take information and guidance from 
marines who are awaiting a haircut at the Quantico barbershop.
    A few weeks ago I overheard two marines discussing helmets 
while they were waiting for their haircut. It was a 
professional and informed discussion. Later I received this 
from Sergeant Paul Downs, who now works at MCIA [Marine Corps 
Intelligence Activity] on our base at Quantico, and he 
summarized our conversation as follows, and he felt compelled 
to just send me the e-mail straight out.
    He wrote: Sir, in my experience with the MICH/ACH [Modular 
Integrated Communications Helmet/Advanced Combat Helmet] 
helmet, when compared with current PASGT [Personnel Armor 
System for Ground Troops], it excels in multiple areas. One of 
the biggest issues of the PASGT is how it integrates with 
current body armor. While in the prone position, during squat 
or buddy rushes, the PASGT, because of its bulky size, shoves 
forward over the eyes and takes away precious seconds of 
suppressive fire to fix. The MICH/ACH does not have this 
problem. Also, the MICH/ACH is lighter and uses a more 
comfortable suspension system.
    In my experience of leading marines, the number one reason 
that they remove their helmets is discomfort. The MICH/ACH 
helmet solves these issues.
    I believe Sergeant Downs would agree that we are on the 
right path, and we will continue to help marines travel lighter 
and move faster through a reduction in size and the amount of 
equipment and dependence on bulk supplies.
    We rely on men like Sergeant Downs to thank and inform 
critically.
    Your invitation asked us to help you better understand 
marine equipment for dismounted operations. To do that, I 
briefly mentioned some efforts and options on our equipment. 
And I have also refreshed your insight into how we are 
organized for mission success and the priorities of our 
Commandant.
    I would like you to know before all else, though, before we 
see the marine as a system, before we look at the equipment, we 
see the marine. We never lose sight of the individual marine. I 
have often visited the fifth deck of the Naval Medical Facility 
out at Bethesda, most recently on March 4. I get a chance to 
talk to the marines while I am there, and we talk about where 
they are from, how they landed in the hospital bed. We talk 
about what is next, and we talk about the gear that saved their 
life. Mothers, fathers, wives and the marines themselves thank 
us.
    Our work is enduring and far from over. And with your 
continued support, we will continue to protect our marines. 
Thank you.
    [The joint prepared statement of General Kelley and General 
O'Donohue can be found in the Appendix on page 61.]
    Mr. Bartlett. Thank you very much.
    General O'Donohue.
    General O'Donohue. Mr. Chairman, we just have one statement 
for the Marines. I am prepared to answer questions as we go, 
sir.
    Mr. Bartlett. Thank you all very much for your service and 
for your statements. As is generally my policy, I will reserve 
my comments and questions until after all of the other members 
of the subcommittee have had an opportunity to make their 
comments and ask their questions.
    I turn now to my friend and colleague, the ranking member, 
Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here.
    And, Sergeant Corp, thank you for your service and 
sacrifice you have made and your family has made on our behalf. 
I hope you feel free to take that off, because I am a little 
warm, and I am just wearing a civilian coat here. So please 
don't hesitate to take that off.
    I have one question which may be basic, and there is 
probably good reason for this, but in Afghanistan--I just came 
back about a month ago--in Afghanistan, the Army standard 
individual weapon is the M4 carbine. The Marines, in contrast, 
use the M16A4. And I was wondering why don't we standardize the 
weapons? Why can't both services use the same type of weapon? 
Are there individual requirements that favor one over the other 
based on the services? I will wait for your answer there.
    General Fuller. Sir, the Army also has M16A4s in its 
inventory. It has basically 600,000 M16s in the inventory and 
about 500,000 M4s. The M4s were brought into the field because 
our soldiers, especially in a close-combat fight, saw that they 
needed a shorter weapon.
    If you see what Sergeant Corp has, that is an M4. It gives 
you an adjustable butt stock. It has a five-inch shorter barrel 
than the M16. So it is more optimized for coming out of a 
vehicle or operating in a vehicle with a shorter weapon so you 
can better engage, and also while you are in dismounted 
operations.
    We work very closely with the Marines, and I will let 
General Kelley talk about that piece of it. But we work very 
closely with the Marines. As we look at our new individual 
carbine competition, we are sharing all of that information 
with the Marine Corps and with General Kelley's team. So we 
both have the same kind of weapon, the same types of weapons, 
and we just have more of them from the perspective that we have 
more infantry, and that is where our primary M4s are going, 
into our infantry formations.
    General O'Donohue. Sir, the primary weapon, service weapon, 
for the Marine Corps is the M16A4. We also have a combination 
of M4s to fit the mission profiles briefed by General Fuller.
    We have a different mission profile than the Army, which 
results in a different combination of equipment and 
requirements for both the dismounted marine and also for 
vehicles. We put a premium on range, marksmanship, and 
dismounted operations. We also use and employ the M4 for close 
combat and for missions and for marines who have the confines 
of vehicles.
    Again, our focus is on the infantryman, and we design the 
vehicles around the infantrymen, and that includes the M16A4 
for the advantages of range and accuracy.
    Mr. Reyes. Thank you.
    That brings me to the second part of my question, and that 
is that for fiscal year 2012, the Army is requesting $8.5 
million to begin a competition for a new individual carbine. At 
the same time, the Army has requested $35 million to buy new M4 
carbines and an additional $41.8 million to upgrade the M4s 
that you already have in inventory.
    To me, it seems unusual in that--at least I have not 
heard--and in talking to the soldiers and marines, there don't 
appear to be any problems with the current weapons. Is this 
just a modernization effort by the Army, and perhaps the 
Marines as well, in putting out for competition--is it the next 
generation that will replace the M4, or can you explain that to 
us?
    General Fuller. Yes, sir, I can. Currently we have, as I 
said, 500,000 M4s in our inventory. There is an ability to 
improve that capability, and we call it the M4A1. It gives you 
a heavier barrel. A heavier barrel to the field means you can 
increase your sustained rate of fire, and you won't have any 
type of issues associated with the barrel overheating.
    When you receive an M4A1 carbine, you also receive the 
fully automatic mode. So now soldiers can engage not only with 
a short-round burst, but a fully automatic, so they can pull 
the trigger, as you are probably aware. We have not had that in 
our weapons.
    So we are taking our fleet of 500,000 M4s, and we are going 
to upgrade 140,000 of them to this M4A1 configuration, which is 
where you see the funding associated. We want to continue to 
improve the M4, not necessarily associated with a complaint or 
a challenge that the field is having, but we want to continue 
to refresh that technology. Is there a better way to provide 
them the way the weapon operates? Can we provide them a 
different operating system so the barrel, the bolt, the firing 
mechanism, we give them ambidextrous, because we don't have 
ambidextrous controls right now. So that is what you see.
    We have made 63 improvements to the M4 since it was first 
was fielded into the force in 1991, and this is just another 
iteration of improvements. While we improve those 500,000 M4s, 
we want to see through a full and open competition is there 
something better available for our soldiers? And that is what 
this competition will be doing for our individual carbine.
    At the end of that competition, we are going to evaluate 
the products that are available against our M4 and make a 
business case decision within the Army, is there something 
better? And is it substantially better and worth the investment 
to make an investment into a new, modern, or a different 
carbine, which we call the individual carbine?
    So I hope that explains it. We want to improve our current 
fleet while at the same time looking at is there something else 
also available.
    Mr. Reyes. General Kelley or General O'Donohue?
    General Kelley. I will just echo what General O'Donohue 
said, that the M16A4 remains our primary weapon. But we have 
also enjoyed a close working relationship with the Army. It has 
been very open in terms of what they are pursuing. And at this 
particular time, on the acquisition side of the house, sir, we 
are monitoring what the Army is doing with the M4.
    General O'Donohue. Sir, just to follow up on that, on the 
requirement side, again, with the M16A4 as seen in the context 
of we build the Marine Corps on the rifle squad, so to look at 
a weapon, to compare the Army's M4 with the M16A4 and service 
rifle to service rifle would be a better comparison than what 
we are looking at, the M4.
    Also in the context of the rifle squad, we have the 
Infantry Automatic Rifle that is just being fielded. It is a 
significant decrease in weight both in the weapon itself and 
the ammunition. It replaces accuracy for volume in terms of 
suppression.
    So if you look at the balance within the squad and the mix 
between the Infantry Automatic Rifle, the M16A4 and the 
carbine, which we use for more specialized purposes, that is 
how we derive the mix. So, again, we are monitoring the M4, but 
we have a different mix of weapons which give a different 
context and calculus to how we view the carbine.
    Mr. Reyes. Thank you.
    Thank you, Mr. Chairman.
    Mr. Bartlett. Thank you very much.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    I want to thank all of you for being here today. I am 
particularly grateful. I represent Fort Jackson, Parris Island, 
so I am very grateful. Also, I have four sons in the military, 
and, Sergeant, my oldest two sons served in Iraq, and so we 
appreciate your service. And then I, too, served for 31 years 
in Army National Guard, and I appreciate your diagram of 
uniforms, because this is me. I was at the National Training 
Center in 2001, and so I recognize this equipment. Of course, 
many people would recognize it now in a museum.
    But the point is that you all really are providing the best 
equipment for the people protecting our country and our 
freedoms. We want the best equipment, and I appreciate you 
expediting as new innovations come about. This is just so 
helpful.
    Back on the carbine, which obviously is of interest to all 
of us, and I want to join with my longtime friend Congressman 
Reyes on this, and that is with the future of the M4, has there 
been an analysis of alternatives as you are initiating the 
competition, General Fuller?
    General Fuller. Sir, actually there would be two parts. If 
Dr. Markowitz would answer the first part, then I will follow 
up.
    Mr. Markowitz. Sir, my office was responsible for 
considering the need for analysis of alternatives and actually 
wrote a waiver request to Dr. O'Neill, the acquisition 
executive within the Army. I did that really based upon two 
important considerations. One was the Army's Training and 
Doctrine Command had just completed a very comprehensive 
capabilities-based assessment looking at overall small arms. It 
provided much of the spadework you would normally associate 
with an analysis of alternatives, identifying what was the need 
of the actual carbine itself, its key performance parameters 
and key system attributes, as well as the desired need.
    Additionally, working closely with our acquisition 
brethren, we looked at what is the additional information 
needed to complete this type of assessment. Most of the 
additional information we needed really had to come from 
industry and more detailed testing of what was available out 
there.
    It was then my call to make a choice of did I want to have 
an analysis of alternatives without that industrial 
information, or waive this initial assessment, start the 
acquisition process, and do a more detailed assessment of what 
was out there and, with that more informed information, make 
the decision.
    So my recommendation to the acquisition executive was to 
waive the formal AOA [analysis of alternatives] and really do 
in some ways a more comprehensive analysis based upon actual 
information from what is truly available from industry.
    I will leave it to General Fuller to explain how the 
acquisition process will complement and get that type of 
information we need for an intelligent decision.
    General Fuller. Representative Wilson, you are asking why 
didn't we do an AOA up front, and as Dr. Markowitz said, we are 
going to be doing this AOA, but we are going to be calling it a 
business case analysis. Let us take real products that are 
provided through this full and open competition through an 
evaluation process. At the end we have real information, and we 
take that and we then do the business case analysis, which is 
really your analysis of alternatives to our M4A1 and M4 
capability. The M4A1 will go through that exact same evaluation 
process so we ensure that we have sufficient data on exactly 
what is the capability that we have, and is this better, and 
why is it better.
    So we are defining exactly what our criteria is for this 
business case analysis so we know what good is and what is 
better and how are we going to do this evaluation. This 
evaluation will be done at the end of the competition. It will 
provide you that AOA analysis. I think it is a prudent way to 
really provide our soldiers and our other stakeholders, like 
yourselves, as to why we made an informed decision as to did we 
buy another new weapon, or did we not, and here is why.
    Mr. Wilson. This is encouraging, but I also want to verify 
that it is not going to be just based on the lowest bidder. It 
should be a combination of quality, cost with lifecycle 
included and manufacturing capability. Does that fit into what 
you are doing?
    General Fuller. Yes, sir. Absolutely. As a matter of fact, 
when we go through the evaluation process of our individual 
carbine competition, it is a multiphased effort. It is 
production capacity. It is whether or not we receive our 
government purpose rights so we can then take that government 
purpose rights and allow other vendors to come forward and 
build that if we want to increase our rates of production. It 
is the evaluation of the life cycle costs, the sustainment 
costs, how well it maintains accuracy. There are a lot of 
different elements associated with that.
    Mr. Wilson. And final question. Is this included in the 
fiscal year 2012 budget as to the proposal request? Does the 
continuing resolution have any effect, Dr. Markowitz or General 
Fuller?
    General Fuller. Sir, the continuing resolution does not 
have an impact currently on our M4 or our individual carbine 
efforts because we had a funding line previously. So this is 
not a new start, which would have impacted it. But it could 
impact us in the future if we continue in this manner, but it 
currently does not.
    Mr. Wilson. Would it be included in fiscal year 2012?
    General Fuller. Yes, sir. It will be included in fiscal 
year 2012 and also fiscal year 2013. The competition will run 
through 2013, with a decision made in fiscal year 2013.
    Mr. Wilson. Thank you very much.
    Mr. Bartlett. Thank you.
    Mr. McIntyre.
    Mr. McIntyre. Thank you, Mr. Chairman.
    General Kelley, the Enhanced Combat Helmet, I know you 
state on page 8 of your testimony, and I quote, ``is an example 
of the Marine Corps' efforts to provide greater protection at 
approximately the same or less weight as the currently fielded 
lightweight helmet.'' And then over on page nine you state that 
``the ECH is a collaborative effort between the Army, Navy and 
Marine Corps, with the Marine Corps acting as the program 
manager lead.''
    Could you tell me what is the schedule for the Enhanced 
Combat Helmet and when you expect to begin fielding this helmet 
specifically in Afghanistan?
    General Kelley. Sir, December 23 of 2010, sir, we gave the 
program manager for the ECH the Milestone C decision authority 
to go--to produce helmets for first article test. The first 
article test started in February. It will end in about 2 weeks, 
sir. Then we are anticipating fielding most probably in the 
first quarter of 2012, sir.
    Mr. McIntyre. Is that pretty much following on schedule?
    General Kelley. What we have been noticing in first article 
tests most recently, sir, is some different performance than 
what we have noticed in DT [Developmental Testing]. We believe 
now that we have identified the root cause of the ECH helmet 
problem that we are seeing in the first article test right now. 
It occurs during the curing and paint process.
    Normally when that helmet is developed, it will set on the 
shelf, and it will gas off. It will release air essentially and 
some water vapor, and then it will go through the curing 
process. That was as the process was originally intended from 
manufacturing.
    In order to accelerate that process, bring the helmets, 
make them available more quickly, they increased the 
temperature at an earlier stage. So what we are noticing, that 
is changing the matrix, so to speak. We believe that we have 
identified what the problem is here.
    What that might do for us, sir, is that we will evaluate 
the data in the next two weeks. We will probably need to do 
some additional testing. That might add about 45 to 60 days. 
That will probably start in the June timeframe. We are 
preparing to see what that will do as we cross the fiscal year. 
But we still believe that because our folks have been able to 
identify--and, by the way, we have been working with the Army 
on this. I think we all agree that we have identified the root 
cause and have a way ahead. So I would say the first quarter of 
fiscal year 2012 looks reasonable.
    Mr. McIntyre. I would ask both of you to just to simply 
answer yes or no, and if the answer is no, why. Is the wearing 
of body armor ever optional in theater?
    General Fuller. Sir, I believe it is no, but I will get 
that--I don't manage what happens downrange. We can get this 
officially for you on the record. I believe it is no. We give 
them options, and they can scale their body armor, but I don't 
believe they are not allowed to not wear body armor in the 
combat zone. We will get that for the record.
    [The information referred to can be found in the Appendix 
on page 87.]
    Mr. McIntyre. If you would in the next 10 business days.
    General, in the Marine Corps, is it ever optional?
    General O'Donohue. Sir, for commanders, lieutenant colonel 
and above, they have the option to modify the protective 
posture of the marines according to mission terrain, weather, 
and the like. It is not optional to the marine, but the 
commander will look at the mission profile. In fact, our aim 
throughout this is to give the most options to the commander so 
he can tailor his protection according to mission where 
mobility gives more survivability. That would be a case where 
he might want to scale down from the full modular tactical vest 
to a plate carrier, would be one example, sir.
    Mr. McIntyre. The last part of my question: Are there 
adequate inventories of body armor available for training and 
combat operations in the Army and in the Marine Corps? If each 
of you would answer are there adequate inventories or not?
    General Fuller. Within the Army, yes, sir. When we have our 
soldiers training prior to deployment, we provide them the body 
armor that they would be wearing in Iraq or Afghanistan, 
wherever their deployment is, and we also give them the hard 
ballistic plates. So they wear the full complement, get used to 
it, loaded the way that they are going to be wearing it when 
they deploy.
    Because I talked about the grandmother's china wrapped in 
Kevlar, we ensure that that ballistic plate is still going to 
provide you the desired protection, and you haven't cracked it 
during your training. And we X-ray the plates prior to the 
soldier's deployment. We also X-ray them midtour during their 
operations. So we are constantly checking the inventory of our 
plates to ensure that the soldiers have high-quality body 
armor, and they have high confidence in it. But the objective 
is give them the capability--we have sufficient capability--
before they deploy so they can train with it.
    Mr. McIntyre. Thank you.
    General.
    General Kelley. The answer is, yes, sir. I can't improve on 
anything that General Fuller set out, but I also want to say 
that we give the marines the gear that they need to exercise 
that option, the armor protective levels that Brigadier General 
O'Donohue discussed.
    We also work with the Army in terms of monitoring each 
other's inventory just to make sure that in case if there is 
ever a shortage, that we would be able to support each other. 
But we go through the same process in terms of issuing and also 
checking the gear when a marine comes out of theater.
    Mr. McIntyre. Thank you.
    Thank you, Mr. Chairman.
    General Fuller. And, sir, they are the exact same plates 
between the Army and the Marine Corps and the Air Force. So we 
all have the exact same plates.
    Mr. Bartlett. Thank you very much.
    You heard the bells go off. We will recess for some votes 
when we have about 5 minutes remaining. There will be time for 
at least one more series of questions.
    As required by the rules of our committee, those who were 
present at gavel fall will be recognized for questions in order 
of seniority, rotating between Democrat and Republican. For 
those who appeared in committee after gavel fall, they are 
recognized in the order of the time of their appearance at the 
committee, which means that Ms. Tsongas is our next questioner.
    Ms. Tsongas. Thank you. You know, I grew up in the Air 
Force, and one of the things I learned was to be on time. 
Occasionally it falls to our benefit.
    I want to thank you all for being here today.
    General Fuller, it is a great pleasure to see you. I am sad 
to learn that this will probably be your last testimony, but I 
know you will serve General Petraeus in Afghanistan very, very 
well. I look forward to seeing you there and hope for your safe 
return.
    I would like to engage just in a little bit of pride of 
place. General Fuller, you and I took a tour of Natick, the 
Soldiers System Center in Natick. It is not in my district, but 
not too far, and near the birthplace of our Nation's Army. I 
greatly enjoyed our visit there and learning about the research 
that has been conducted at this one-of-a-kind facility that 
treats the soldier as a system.
    Massachusetts is also home to some of the most significant 
defense technology companies and as a cluster in the country. 
My district in particular has some remarkably innovative 
companies that do a lot of work around protecting the soldier, 
and much of it is making its way into all of the advances that 
we see here.
    But the issue of body armor and its weight remains a great 
one. I was a new Member of Congress when I first came to this 
committee and heard testimony on the challenge of body armor 
weight. I asked a young soldier, who I believe, General Fuller, 
you had with you, if he was ever tempted to take off his body 
armor, and he replied, ``Yes, indeed.'' So the commanders do 
have flexibility in the field, and I am sure that they are 
challenged often by those men and women they are overseeing to 
take it off.
    But the issue of oversight has been a great one, and in the 
language in the fiscal year 2007 Defense Authorization Act, the 
President established a separate, dedicated budget line item 
for body armor, to improve research, development and 
procurement of it. And it was a great step in ensuring that the 
Defense Department focuses on this issue and allows us to 
provide better oversight.
    I have two questions, and if we can't get to a full answer, 
maybe on return.
    The Army is now approximately 14 percent female. How are 
your efforts, which I know you are working on with the Air 
Force, to research and develop more comfortable body armor for 
women progressing?
    I will get to my second question if there is time.
    General Fuller. Yes, ma'am. As you said, one size does not 
fit all within the Army. Fourteen percent of our force is 
women. We are, on the uniform side, actually developing a 
female-cut uniform. We are going through the evaluations of 
that right now.
    On the body armor, what we have done when I talk about our 
new, Improved Outer Tactical Vest, we are in the second 
generation of it. It actually gives you more adjustments for 
our smaller-stature individuals in the military, such as women 
that might sometimes be of smaller stature. So we recognize 
that we need to do something, so that we have done it with the 
soft body armor having better adjustments for women, so when 
you adjust it, your side plates, for example, don't come all of 
the way around to the front by the time you have got the 
adjustment correct on your side.
    In terms of the hard plates, we are looking at the 
technology, but there is still difficulties trying to get a 
more conformal hard-plate body armor available. The physics 
associated with trying to have the body armor work in a complex 
shape is just a bridge too far right now. We are working it, we 
are researching it. We are looking at is there a better way 
that we could interface. Can we provide some undergarment to 
our women that allows them to better interface the body armor 
to their body size and types? We are working through that also.
    It is a challenge. One size can't fit all, we recognize 
that, but we don't have an answer at this time other than our 
soft body armor, which now has better adjustments, and our 
female uniforms, which are in evaluation right now.
    Ms. Tsongas. Are you collecting any data around the impact 
of just sort of the current, sort of standard body armor and 
its capacity to protect women versus--and the need, sort of 
undergirding the need to move ahead on developing body armor 
that is adaptive to women, better suited to their body types?
    General Fuller. Ma'am, we don't collect specifically data 
on women. We collect data on all of our soldiers to include the 
women. So I would say we don't have any specific data 
associated, but we can subcategorize that. I can provide for 
the record any data that we have concerning the collection of 
information.
    But we recognize that it is a challenge. We are looking at 
it. As I said, we haven't figured out how to conform the hard-
plate armor and provide that ballistic protection that the 
soldiers require, regardless of whether they are man or woman. 
But we are looking at that action.
    Ms. Tsongas. Well, I would suggest that you collect women-
specific data just simply to drive the urgency of the need to 
focus on research and development in this area.
    I don't know if I have a time for another question or if we 
need to go vote.
    Mr. Bartlett. We will do a second round of questions. Thank 
you very much for your questions.
    Mr. Runyan, we have 6 minutes and 51 seconds remaining.
    Mr. Runyan. Thank you, Mr. Chairman.
    I thank everybody for coming out and answering some 
questions.
    My background personally is very athletic, and I have some, 
as we all--we have concerns of weight and being mobile. My 
experience is, and I think in my past career in the NFL 
[National Football League], we have stripped all of the pads 
off. And I think a lot of soldiers would agree with that that 
it is easier to move without all of that on there.
    Where is the threshold; do you know? When we weigh these 
soldiers down, when do these injuries set in, the arthritic 
knees, the backs? That is something I have experienced in my 
past life, and I am just curious if there is that data out 
there.
    General Fuller. Sir, I understand what you are talking 
about, and as you just identified, there are a lot of different 
sizes of individuals. You or I might be able to carry more 
weight for a longer period of time, but it might have a more 
residual effect on us.
    We are looking at this information. I would say we are 
really trying to do a better job of systems engineering at the 
individual soldier level. We recognize we do great jobs when we 
do systems engineering on platforms, and we have treated the 
soldier, as Representative Bartlett said, as a Christmas tree, 
and we just hang things on our soldiers. We recognize we can't 
do that. We have to do a better job of doing the system 
engineering, understanding what are the physiological 
challenges associated with adding more kit, regardless of its 
capability, and the impact it will have on our soldiers' 
ability.
    As you recognize, once you start getting tired, your 
cognitive scale sometimes starts to become diminished at the 
same time, and that is not what you really want in a combat 
environment. So we don't have specific information other than 
we are now thinking about this more holistically. What do we 
need to do to provide capability to the individual soldier, and 
what is that weight doing to that individual soldier, and 
understand the physiology associated with that.
    At the same time, as we heard General O'Donohue talk about, 
we are looking at how do we start thinking of a unit instead of 
just an individual soldier. When I talk about Sergeant Giunta, 
Sergeant Giunta was not operating as an individual. He was in a 
squad inside a fire team inside a platoon. We are looking at 
small tactical units. Can we distribute some of this capability 
across a unit? What are the risks and the advantages so we 
don't weigh down everybody with the same exact capability, but 
distribute capability across the unit?
    Mr. Runyan. Thank you, because also relating to that, and 
relating to wear and tear and also injuries leading to that, it 
becomes a fiscal problem in the end if you have to rehab 
soldiers, or they are being disabled or being taken out of 
service. It is really something I think we really do have to 
address. I appreciate your answer on the last question.
    I yield back, Mr. Chairman.
    Mr. Bartlett. Thank you. We will recess now for the vote 
and be back as soon as we can. Thank you.
    [Recess.]
    Mr. Bartlett. Our subcommittee will reconvene. Mr. Critz.
    Mr. Critz. Thank you, Mr. Chairman. Thank you, gentlemen, 
for your testimony today.
    I guess there is, I think, congratulations in order. When 
will it be official you will be Major General?
    General Fuller. I hope it would be very soon, but it looks 
like June or July time period.
    Mr. Critz. Well, congratulations.
    My questions revolve around the sniper, counter sniper. 
Looking back through some information from years past, then 
Major General Petraeus was talking about sniper detection as a 
sufficient deficiency in 2003. Then Vice Chief of Staff of the 
Army Cody made counter sniper a priority in the spring of 2006.
    So my question is, Dr. Markowitz, has the Army approved the 
requirement for soldier wearable sniper detection devices yet?
    Mr. Markowitz. Sir, that is a good question.
    Mr. Critz. Sounds like a no.
    Mr. Markowitz. No, no. We are still exploring it is the 
short answer, and let me give some, if I can, a little bit of 
background.
    Mr. Critz. It was brought up in 2003. It is now 2011.
    Mr. Markowitz. Sir, the counter sniper, when it was 
initially brought up, was very broad counter sniper concerns. 
We immediately started to do some TTP, or tactics, techniques, 
procedures changes and soldier training on our counter sniper, 
both avoidance and how to minimize the effects.
    Very shortly after introduction of the TTP change, counter 
sniper casualties went dramatically down in Iraq. At the same 
time we started to field counter sniper technologies across the 
board, both providing vehicle-borne counter sniper gunshot 
detection systems that could identify where we put more remote 
mounted weapons systems so soldiers wouldn't be exposed. We 
have expanded into areas like mannequins and decoys, various 
forms of deception devices, with several lessons learned across 
the piece. Those that have generally succeeded we have kept, 
including vehicle-mounted gunshot detection. We started to 
field a fixed site gunshot detection. That is very valuable. In 
fact, the Pentagon has just had that series of systems put 
around the boomerang projects. Individual gunshot detection has 
always been an area that has been the highest challenge, for a 
few reasons. One is it is weight for the soldier, which we have 
had some of the discussion today as one of our greatest 
challenge areas.
    Mr. Critz. Right.
    Mr. Markowitz. Battery usage for its reliability throughout 
extended mission has been an issue we need to do. We fielded a 
system a year and a half ago. We had an ATEC assessment of it, 
Army Test and Evaluation Center, forward operating assessment. 
Overall, the feedback was negative of this initial version in 
that it had a lot of false positive rate for identification. 
When a fire occurred and soldiers went prone, they lost 
direction about where the shots had come from.
    We initiated then a new operational needs statement, 
because we are interested in getting this technology developed 
and out in the field. That next generation has gone through the 
competition. Maybe General Fuller can talk about the status of 
the acquisition. In terms of the requirement, we are really 
looking forward to seeing how this next generation performs in 
Afghanistan. We want to make sure that we balance the weight 
and the capability systems well so that we don't ask for 
something that is too impossible to do or impose too much of a 
weight load on the soldier or battery load. So we will have to 
see how this next generation performs in Afghanistan. We are 
refining the requirement to our delivery systems so we can 
field it across the Army. Once we get that information, then we 
will start forward with a more deliberate requirement. But we 
are not stopping in terms of getting capability to our soldiers 
in the field.
    Mr. Critz. The reason I bring it up, too, is that the Army 
put a request in the fiscal year 2009 emergency supplemental, 
and that was funded at--I am trying to think--13,500 detection 
devices were awarded a contract in 2010, but it was based on an 
fiscal year 2009 emergency supplemental of $50 million that was 
appropriated in June of 2009. So I guess the contract took 13-
15 months to get awarded on a fiscal year 2009 emergency 
supplemental request? I am trying to get to where it took so 
long to get, one, from when a need was identified to where we 
are under contract as of October of 2010?
    General Fuller. Yes, soldiers do want a dismountable or a 
gunshot detection system that they can wear when they are 
dismounted. We have that capability. When you talk about the 
fiscal year 2009 funding, we went through the rapid equipment 
force and bought a small number right off the shelf of this 
capability and got it immediately into the field. Then we 
wanted to do a full and open competition to allow other vendors 
to come forward. That did take longer than we wanted. We did 
get through full and open competition with that capability. The 
production will be available starting in May of this year, and 
we will then start fielding it to our soldiers.
    Did it take longer than we wanted? Yes. The process to go 
through full and open just took longer. But we did get initial 
capability, and that is what Dr. Markowitz said. The initial 
capability didn't work as well, so we then spiraled in these 
improvements into the full and open competition. So we believe 
what we were going to be fielding starting in May will provide 
the capability that the soldiers really want.
    We are also trying to take that same capability and tie it 
into that Land Warrior-Nett Warrior capability so that not only 
do I know that someone is shooting at me, but I can push that 
information to others so maybe they can engage. But it has 
taken longer than we wanted, sir.
    Mr. Critz. Thank you. I yield back, Mr. Chairman.
    Mr. Bartlett. Thank you very much. I now yield to Mrs. 
Roby.
    Mrs. Roby. Thank you very much. Thank you for being here 
today to answer our questions. I very much appreciate it.
    We are currently fielding the plate carriers for soldiers 
and marines in Afghanistan which are considerably lighter than 
regular body armor. What is the long-term plan for fielding 
plate carriers, meaning do you plan to pair plate the Army and 
the Marine Corps?
    General Fuller. Ma'am, the plate carrier, what we did was 
try to provide that commander with the capability tailored to 
their mission. So they have their full-up individual IOTV 
[Improved Outer Tactical Vest], individual outer tactical vest, 
that allows them to have full-up protection capability. They 
can then take off some of the components. We have protection up 
on the shoulders, for example, around the neck and in the groin 
area. They can take that off. It allows them to save about 
three- to-five pounds, depending on the size.
    We gave them the plate carrier. The plate carrier just 
holds that hard ballistic armor plate front, back and sides. It 
gives that commander that flexibility. We are only providing it 
to our infantry units that are actually operating forward that 
need to operate outside of a forward operating base in or at 
altitude. So when you are starting to talk about reduction in 
the IED threat, because a plate carrier doesn't give you that 
soft armor protection you would need during and IED threat.
    So we are not planning on fielding the plate carrier to all 
of the Army. We are fielding it to our infantry units, and 
infantry units specifically going into Afghanistan to give that 
commander that flexibility.
    I have the ability to wear my full-up IOTV when I am in an 
environment that could be both rifle shot or IED, or I could 
wear my plate carrier so I could just have rifle shot 
protection, recognizing that my IED threat is low.
    We are trying to give them that flexibility because of the 
weight.
    General Kelley. Currently we are fielding the modular 
tactical vest and the scalable plate carrier. The modular 
tactical vest, inventory objective there is about 108,000, 
ma'am, and about 64,000 for the scalable plate carrier.
    In the Marine Corps, we plan on migrating to our improved 
modular tactical vest, which is the IMTV, and that will be 
paired with just the plate carrier. Inventory objective for 
both of those is 108,000.
    We had a chance to discuss a little bit earlier about 
options in the field for commanders, lieutenant colonels, and 
above in order to determine what protection level they 
determine for their particular force. So the IMTV, the improved 
modular tactical vest, paired with the plate carrier, gives our 
commanders out in the field that option.
    I think it is kind of interesting that what happens, a lot 
of times we want to compare the modular tactical vest to the 
improved modular tactical vest. What we are really asking our 
guys to do out in the field is decide do I want my marines 
wearing the improved modular tactical vest or that plate 
carrier, and that is where you will see the delta in terms of 
weight.
    We have done a lot of work also with our program manager 
for marine expeditionary rifle squad in terms of helping design 
the vests themselves in terms of proper fit, how much weight 
that they will carry, how it integrates with the weapons 
systems and radios that they will carry. So in the end for us, 
ma'am, it is the IMTV and the PC, the plate carrier.
    Mrs. Roby. Thank you so much.
    General Fuller. Just as a point of reference, you heard me 
talk about a plate carrier and individual tactical vest and you 
are hearing General Kelley talk about IMTV and all these other 
acronyms. The same ballistic capability. Different names, just 
like we have different uniforms on, but the same capability, 
same ballistic protection regardless of what it is called 
between the two services.
    Mrs. Roby. Thank you for making that clear.
    Mr. Chairman, I yield back. Thank you.
    Mr. Bartlett. Thank you. There should be time for a second 
round of questions. I just want to make a couple of comments 
now and then ask a question or two, and then we will have a 
second round of questions, and then I will have some final 
questions, if there is not interest in a third round, to close 
the hearing.
    Several days ago another panel was before us, and we noted 
that the military does two things that we are frequently not 
involved in, that the Congress is not involved in. They decide 
to develop a new weapons program and they develop the 
requirements for that and the characteristics of that, and then 
they come to the Congress and say we would like you to fund 
that. And then for programs that don't go well, they come to us 
and tell us we think that this program needs to be aborted and 
we would like your consent to do that. Hardly ask our consent. 
We are just going to abort it and we are telling you we are 
doing that.
    We asked that panel, could we be a part of the process? 
This should not be a semi-adversarial relationship between the 
Congress and the Pentagon, we would like to be involved in that 
process. What one of them told us, gee, this is an executive 
responsibility and you shouldn't really be involved in the 
process. So I took out my Constitution and I went to Section 1, 
which defines the responsibilities of the Congress, and Article 
I, Section 8 says: The Congress shall have power to raise and 
support armies, to provide and maintain a navy, to make rules 
for the government and regulation of the land and naval forces, 
to provide for organizing and arming. I think arming refers to 
all of these platforms; doesn't it? The Constitution says that 
is our responsibility. And disciplining the military and the 
authority of training the military according to discipline 
prescribed by the Congress.
    And then I went to Section 2 of the Constitution, which 
describes the powers of the executive, and I looked for all of 
those parts of Section 2 that relate to the military, and I 
found one. It says the President shall be the Commander in 
Chief of the Army and Navy of the United States and of the 
militia of the several states when called into the actual 
service of the United States.
    So if we went strictly by the Constitution, the Congress 
ought to have responsibility for almost everything that the 
Pentagon now claims is the province of the executive and we 
have no responsibility for that.
    The compromise, we would like to be in on the process. We 
have a very capable staff here. Some of our Members have a 
background. We have engineers. I am a scientist and an old farm 
boy. Because I was a farm boy and I was born in 1926 and lived 
through the Great Depression, we learned to make do. So when I 
got my doctorate in human physiology and I went to work for the 
Navy, I saw opportunities to make do with some of the skills 
that I developed in getting my doctorate and I ended up being 
awarded 20 patents, 19 of them military patents.
    So I am pleading for an opportunity for us to work with you 
in developing these systems, and we would like to be in on the 
process. We hope that you will work with us.
    Let me just ask a question or two, and then we will have a 
second round of questions. I will come back.
    I hope that every time I recognize one of the members they 
will ask a question that I was going to ask so I don't need to 
ask any questions at the end. Several have been asked, but not 
all of them. I would like to ask a couple of questions about 
body armor.
    How can we achieve better protection with less weight and 
how do you incentivize industry to do that? Ms. Tsongas has 
asked most of that first series of questions I had, but there 
is one part of it that hasn't been asked. How do we incentivize 
industry to be more creative and innovative in this area?
    General Fuller. Sir, that is a good question. I think in 
part of your first discussion, I think there is always going to 
be dynamic tension between the executive, industry, and the 
Congress because we all have to operate together. When you are 
talking about trying to improve our body armor, we are trying 
to have our research and development arm look at new 
technologies, which we don't see anything that is game changing 
or within the near term that is going to change our ability to 
provide increased protection and lighter weight. So I think the 
next area we need to look at is what is our requirement and is 
it a validated requirement. What are we using as our means to 
validate that the product is what it needs to do.
    We just went through a review of our body armor 
holistically, from head to toe, and we are going through that 
requirements generation process, and that potentially could 
allow us to provide a lighter plate to our soldiers.
    We have technically overbuilt our plates right now. We 
overbuilt them because of our testing process. We said we 
wanted, the way I say it is, we wanted to ensure that you can 
go in the ring with Mike Tyson. And if you could take two hits 
from Mike Tyson, then when Fuller climbed into the ring, you 
knew you would be able to survive those rounds.
    That is the same thing we did with our body armor. We used 
a round that is not on any battlefield in the world, and we set 
that bar for a reason. Now we are trying to evaluate that bar 
because that bar causes us to have increased weight. Do you we 
want to adjust the bar? That is one way. If the technology 
can't get us there, can we adjust the bar and understand why we 
are adjusting it. So we are going through that review right 
now.
    Having these research and development lines I think will 
assist us in keeping industry interested in pushing IR&D, their 
independent research and development, to try to find new 
technologies also. But we are looking at this. We are trying to 
find is there a new technology, is there another way to build 
the plate. We want to incentivize the contractors with our 
research and development line in fiscal year 2012 to have them 
come forward and say, We would like to have a 20-percent weight 
savings in the plate; can you achieve that and how would you do 
that.
    Again, our end state is every soldier is protected 
regardless of where they are in the world, and we want to 
ensure that we don't ever reduce the capability of the plates 
from what it has to actually stop. But as I said, did we put 
the bar too high for the process that we used initially.
    Mr. Bartlett. Thank you. You mentioned a separate line. We 
are very pleased with that. We have been arguing for that for 
several years now. The armor used to be a part of clothing. It 
isn't clothing, but in order to get adequate focus on it we 
needed a separate line, and we are really pleased with that.
    Two more really quick questions and then we will go to a 
second round. Please provide justification for using only 
government laboratory for all first article and lot acceptance 
tests for body armor components? Aren't there civilian labs out 
there that can do just as good a job?
    General Fuller. Yes, sir. As you are aware, from the PEO 
Soldier perspective, we used to use predominantly commercial 
labs to do all our testing. PEO Soldier is about volume and 
velocity. Last year, we fielded 230,000 soldiers in the Army 
with that kit that Sergeant Corp is wearing, and that equaled 
to 17.8 million pieces of kit total. So it is about volume and 
velocity.
    When we saw the threat change in Iraq specifically, we went 
from our SAPI [Small Arms Protective Insert] to our ESAPI 
[Enhanced Small Arms Protective Inserts] plates, our small arms 
protective inserts to our enhanced small arms protective insert 
plates. We needed immediately to buy two million of these 
plates, or two million sets of these plates. So what happened 
was we get the industry involved on building, and then we were 
going to commercial labs to do the testing.
    We want to ensure that we maintain that high level of 
fidelity on our testing processes. Through your actions in the 
Hill, Department of Defense Test and Evaluation--excuse me--the 
Director of Operational Test and Evaluation, DOT&E, now has 
oversight of all of our testing operations.
    The second thing we wanted to do was bring our testing in-
house to ensure that we can maintain that pedigree from the 
time we produce that product, the time we test it to the time 
we field it through that nondestructive testing process we call 
the X-rays. So we wanted to bring it in-house. So we brought in 
our hard body armor testing, we brought in our soft body armor 
testing, and we are bringing in our ballistic eyewear, our 
helmet testing and also even fire-resistant capability.
    But I am getting out of the testing business. I don't want 
to be working with the independent contractors that are doing 
this testing. I want to go to the Army Test and Evaluation 
Command and say, here is the capability, I need this tested, 
and then they can subcontract, which is what they will be doing 
to these private labs. They provide the oversight, they provide 
the support, they validate the product. I then am a customer to 
the testing lab.
    So it is a fine balance when we are talking about that 
testing capability within the Army. If we have overcapacity, 
then we have an inefficiency from a financial perspective 
because people are waiting for someone to come. We don't want 
Maytag repairmen at our test organizations.
    So we want to figure out what should be their overall 
capability and when we have these surges, if we needed new 
capability, we need to buy a lot of it and then have a lot of 
testing going on, they go out and subcontract and they certify 
the subcontract labs, which is what they have done. So they 
have done that on the hard plate side, they have done that on 
the soft armor side, and they have done it on the ballistic 
eyewear.
    So we actually have a lot of testing ongoing at commercial 
labs even though it is now under the Army Test and Evaluation 
Command.
    Mr. Bartlett. Thank you, sir I am happy we still have 
competition. It makes everything better and cheaper. And thank 
you for sharing that. One other really quick question. We hear 
a lot of complaints regarding the current pad suspension system 
being too hard and that it lacks durability. Are you receiving 
similar complaints and what types of internal pad suspension 
systems will be used in the Enhanced Combat Helmet?
    General Fuller. Sir, from our perspective, we have 1.1 
million soldiers, and there is a lot of different head sizes. 
We are finding two things are going on. One, we actually are a 
high-tech Army. When we are talking about that body armor, I 
flippantly say it is your grandmother's china wrapped in 
Kevlar. It is high-tech. You need to care for it like it is 
high-tech. That is why we have the X-ray machines.
    When we put a helmet on your head that gives you great 
ballistic and blast and blunt trauma protection. It is actually 
high-tech. You need to have it fitted to you. You just can't 
say, I think this is your head size, go ahead and wear it. When 
you wear it and you don't have it fitted to your head 
appropriately, or you don't wear all the pads that we provide 
to you, you end up saying well, the helmet doesn't fit me, and 
I think I need a new set of pads.
    We are constantly getting feedback from the soldiers. We 
are trying to reinforce to them, understand how to wear the 
kit, understand the environment in which you think you want a 
softer pad will also potentially create or exacerbate a blast 
effect which can potentially give you TBI or mild traumatic 
brain injury. We have to balance all this. We don't know if you 
are going to be operating in a warm environment one day and in 
high altitudes the next day. So the pads have to be able to 
respond to all those environments.
    As we go through our Enhanced Combat Helmet with the Marine 
Corps, and our Army combat helmet, we are looking at a new pad 
solicitation. All vendors again, full and open competition, 
come forward, is there a better pad available than what we 
currently believe we have. Many people say we are buying a 
cheap pad. It is not a cheap pad. We don't go for the lowest 
bidder, we go for the best protection in that helmet to ensure 
that you give them that blast, blunt, and ballistic protection.
    Mr. Bartlett. Thank you very much.
    Mr. Critz.
    Mr. Critz. Thank you, Mr. Chairman.
    Could someone provide the committee with some of the 
operational feedback you are receiving regarding the operation 
of the M4 in Iraq and Afghanistan?
    General Fuller. Sir, we do post combat surveys on every 
brigade combat team that comes out of either Operation New Dawn 
or Operation Enduring Freedom, so Iraq and Afghanistan. We 
correlate all of that information. We ask them about all of the 
equipment they have, to include their M4s. High response on the 
M4s.
    We, I believe, lost the system perspective when we talk 
about the M4 and its capability. When we fielded the M4, we 
used the exact same ammunition that had been developed for the 
M16. We forgot the system perspective, as Dr. Markowitz talked 
about in his opening comments. We are trying to provide that 
soldier the lethality package, it is a combination of the 
optics, the ammunition, the training, the weapon and the 
interface to the soldier. So you have to combine all of this 
together.
    But we didn't think about the ammo when we gave them a 
carbine that actually has a shorter barrel. So some of the 
effects that we potentially saw, you saw a greater flash 
because the bullet, although it is not thinking, thought that 
it had an additional 5 inches to burn. So you have a flash at 
the end. General Petraeus actually did a byline, a personal 
request. He wanted flash suppressors for the forces in 
Afghanistan. I immediately responded and got flash suppressors. 
I contend we actually needed to give them better ammunition, 
which is now our new 855A1 ammunition. It is optimized to the 
M4, but it doesn't negate the fact that the marines are still 
using the M16A4. It doesn't have any impact, it is just 
optimized to the M4. So the burn in that bullet exiting the 
barrel is when the burn completes so you don't have a big flash 
coming out the end. When you don't have that flash, you have 
clean burn. When you recycle the weapon, we use that same gas 
to recycle the weapon. If the gas is dirty, you potentially 
could see an increase in dirty operating system inside your 
weapon which could potentially cause a jam. So you have to 
clean it more frequently.
    Now we have the ability to give you a weapon, optimize the 
performance of that weapon with the ammunition, which gives you 
better performance in terms of the performance of the bullet, 
it gives you better performance in terms of performance of the 
weapon, and the soldiers are saying that they were concerned. 
We call it green ammunition. It gets the lead out of the 
ammunition. They thought it was going to be like fat-free and 
not work well. The soldiers are saying it works very well. It 
does exactly what they want it to do. We believe we will see 
any issues anybody ever had with cleaning their weapon or flash 
on their weapon will be mitigated from a systems engineering 
perspective.
    Mr. Critz. Good. Just one quick question. Much of the 
debate and much of the testimony up to this point has been sort 
of the alarm that the military has, all branches and the 
Pentagon, with the CR [Continuing Resolution], what it does to 
what you are planning and industry. I was looking at your 
soldier modernization efforts, the Army's modernization efforts 
for 2011-2015, and I see the 50 cal, 50 percent lighter, helmet 
sensors, combat glove, mountain combat boot, water treatment. 
Now these are in your fiscal year 2011. What is the impact of 
the CR on these programs, not even looking at fiscal year 2012 
out to 2015?
    General Fuller. A great example, sir. When you talk about 
that lightweight 50 cal, we call it the XM806, 50 caliber 
machine gun designed to be able to take all of that heavy 
recoil. Our contractor has come up with a concept that is still 
in development that says we can give you half the weight of 
that 50 caliber machine gun, same capability, same ammunition 
but at half the weight. We have to delay that program for a 
year based on the continuing resolution.
    A lot of our other items, when we look at the mountain 
combat boots, for example, Operation Enduring Freedom, 
camouflage pattern, is the cash flow is different when we are 
in a continuing resolution. So it might not have an impact on 
an actual program, but it has impact on how the cash is 
flowing. And the way that cash is flowing, we talk about small 
vendors building uniforms, for example, and so we have these 
ripple effects. So it is creating a challenge within PEO 
Soldier, the way the cash is flowing due to the continuing 
resolution.
    Mr. Critz. We are just as frustrated as you are, and I want 
to let you know that all of us on this panel are working very 
hard to move this forward.
    But thank you, and I yield back.
    Mr. Bartlett. Thank you very much. Mr. Runyan.
    Mr. Runyan. Just one quick question, Mr. Chairman.
    You talked about temperature relating to the equipment. 
Have you addressed body temperatures and fatigue relating to 
the soldier?
    General Fuller. Yes, sir, we have. As a matter fact, 
Sergeant Corp is wearing today our Army combat shirt. Before 
you would have worn your Army combat uniform, which would have 
a blouse on top. Then you put your body armor on top, and when 
you put your body armor on top, you would find that it would 
retain all that heat in a hot environment. Or just because you 
are now carrying all of that weight, as we were talking about 
earlier, so you are generating a lot more heat yourself.
    We have an Army combat shirt which has moisture wicking 
material here in the center underneath where you have your body 
armor, and we have both weights, winter weight and a summer 
weight depending on where you are and what the environment is. 
At the same time, we still want to give them that protection 
and the protection we are talking about on the shirt is fire 
resistance. So it is a fire resistant shirt, doing system 
engineering interfacing to ensure that there is no exposure of 
material that could potentially allow you to be burned if you 
were in an event that had some flash fire. So that is how we 
are trying to mitigate some of that.
    Another item he has on is the camel back or the water 
hydration system. Having the ability to carry water on you and 
be able to drink it very easily by just having a tube system 
keeps you hydrated. So we are again thinking of the soldier as 
a system, trying to think through what does a soldier actually 
need. They need to keep them cool sometimes and warm sometimes, 
and when they are getting hot from all of the weight they are 
potentially carrying, how do you mitigate that by wicking the 
moisture away.
    Mr. Runyan. Thank you. I yield back, Chairman.
    Mr. Bartlett. Thank you.
    As a senior member of the Science Committee, I have now 
been twice to the South Pole. I sometimes use this as an 
example of how you kind of get in a rut and keep doing the same 
thing even though it may not make much sense. At the South 
Pole, the sun shines continuously for six months without a 
cloud in the sky. That is a real desert. They have two inches 
of precipitation a year, and the wind blows incessantly, 
sometimes 100 miles an hour. It is blowing 24-7 year around. 
Guess where we get our energy from at the South Pole? We fly 
diesel in on an airplane to run a diesel generator. It shows 
how you can get stuck in a rut. Obviously, what we need to be 
doing at the South Pole is solar in the summertime down there, 
and wind all of the time down there.
    I think we kind of got stuck in that same rut with our 
soldier. If the soldier needs something, of course he carries 
it because is what soldiers have always done. So if he needs 
more, he simply carries more. I am very pleased to note that 
the 4th Brigade of the 101st Airborne is thinking outside the 
box. They now have employed six donkeys to serve as pack 
animals to help them carry this gear. Through the centuries, 
men have found other options than putting it on their back.
    The American Indian, who hadn't invented the wheel, did 
find that if he cut down a sapling and put his teepee on the 
sapling, it was easier to get it to the next site than it was 
to carry it on his back. When we discovered the wheel, we found 
it was easier to put the load on a wheeled vehicle and then 
pull that rather than carry it on our back.
    And I wondered if you had really been thinking outside the 
box--if you want a pack animal, I would suggest that a neutered 
male goat would do a really great job. They are really tough 
animals. If you bottle-feed them, they will follow you around 
like your pet dog all the rest of their life. If you are 
looking for something to carry things for you, you couldn't do 
better. By the way, there are a lot of goats over there, and 
they survive very easily in that environment.
    I would also like to suggest, and again this is because I 
am a farm boy and see some opportunities to make do. I would 
like to at least look at why don't we provide the soldier with 
the means of having that with him other than carrying it on his 
back. And I am not sure what that would be, but I would sure 
like to look at things to address that problem.
    There was a comment made here about please walk through the 
Army and Marine Corps requirements board process? How often do 
you meet? What have been the major results of your meetings? 
What it is describing there are all the things that the 
Constitution says Congress ought to be doing. Now I know that 
the Congress through the years has perhaps unintentionally 
relinquished most of their constitutional authority to the 
executive and the courts, and we ought to be about trying to 
get some of that back. But at least at a minimum, couldn't we 
be involved in that process so that we understand when you come 
before us in a hearing how you got there, so we are a little 
more enlightened and can be more helpful to you; would that be 
okay?
    Mr. Markowitz. Sir, I am not an expert in the Constitution, 
but in terms of the requirements process, we have been looking 
to how to reform it. And particularly in light of the Weapons 
Systems Reforms Act, which has placed increased emphasis on 
analysis of alternatives and cost-benefit analysis and trade 
assessments. I know even for the ground combat vehicle, 
Congress has asked for all of the information that had been 
done for that analysis of alternatives submitted to Congress, 
and we are now in the process of doing that.
    In some ways the request would be if you look at how we do 
that Weapon Systems Reform Act and how to integrate what has 
been asked of the Department of Defense and what we are now 
trying to comply to with your request so that we have kind of 
an efficiency for how we do these kind of cross-leveling or 
cross-assessments. People in my office will get a request from 
some Member of Congress for our analysis of alternatives and 
the background for why a certain requirement is the way it is. 
And we gladly try to share that information. But it is 
haphazard. It depends upon the system and the congressional 
interest at the time. I would ask that if we look at it, we 
just combine what is now done in terms of acquisition reform 
with this request. If it goes forward, how to streamline those 
two efforts, sir.
    Mr. Bartlett. I am sure that you have a very mature, 
meticulous, detailed process for making these very important 
decisions. You have outside consultants, technical consultants, 
that advise you. You look at the technologies and ascertain how 
far you can go with these technologies. You are making these 
decisions. You do board gaming, which really identifies 
deficiencies that you need to address. I am just appealing that 
we would like to be a part of that process. Traditionally 
Congress has not been a part of that process, but I think that 
we should have been. The Constitution says we should be a part 
of that process.
    By the way, I am very pleased that you see your exercise in 
the M4 as determining whether or not there is something better, 
that you are not determined you are going to have a new weapon, 
you want to see if in fact this new weapon is enough better 
than improving what we have got. As the old farmer says: Will 
the juice be worth the squeezing? And there are lot of things 
in the military where you need to apply that old farm principle 
to it.
    Well, I have a lot more questions I could ask, but your 
time is very valuable. So if it is okay with you--Mr. Runyan, 
do have an additional comment or question.
    Mr. Runyan. No, Mr. Chairman.
    Mr. Bartlett. Okay. If it is okay with you, we will submit 
the remainder of my questions for the record where you can do a 
better job of answering rather than on the spur of the moment 
here. Thank you very much for your service.
    General Fuller, thank you for your service. The shoes that 
have to be filled are both figurative and literally really big 
shoes. Your successor has a real challenge, sir. Thank you for 
your service. I thank all of you very much for your service to 
our country.
    The subcommittee is adjourned.
    [Whereupon, at 11:35 a.m., the subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                             March 17, 2011

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 17, 2011

=======================================================================
     
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================

                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 17, 2011

=======================================================================
      
      
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 17, 2011

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. MCINTYRE

    General Fuller. There is no Department of the Army policy mandating 
the wear of body armor. Decisions regarding body armor are left to 
Commanders at the appropriate level based on sound tactical and 
operational requirements. When making decisions regarding body armor, 
the overriding concern of Commanders is the welfare of Soldiers. [See 
page 16.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 17, 2011

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. BARTLETT

    Mr. Bartlett. Does the Army and Marine Corps currently have a 
validated requirement for lighter-weight body armor systems? What are 
your current requirements for body armor?
    Mr. Markowitz. The Army does not currently have a validated 
requirement for a lighter-weight body armor system. The Army's 
currently validated requirement for body armor systems is the Modular 
Body Armor Operational Requirement Document validated in 1999. The 
overall body armor system has been updated via directed requirements 
several times in the last ten years based on operational needs, 
technology improvements, and materiel improvements to various 
components of the body armor system. Each of these modifications sought 
increases in Soldier protection level. Only the directed requirement 
for the Soldier Plate Carrier System was focused on lightening the 
weight. The body armor requirement was last reviewed by the US Army 
Training and Doctrine Command (TRADOC) as part of a holistic body armor 
requirement review directed by Headquarters Department of the Army 
(HQDA) G-3/5/7 in June 2010. TRADOC completed its review in December 
2010 and is currently updating the body armor requirement to include 
weight reduction while retaining the same ballistic properties. TRADOC 
will submit the requirement to HQDA for staffing by the end of 4th 
Quarter, Fiscal Year 2011. The Army's current requirements for body 
armor are all found in Department of the Army directed requirements, to 
include the following: 966,000 Improved Outer Tactical Vests (IOTV); 
966,000 sets of Enhanced Small Arms Protective Inserts (ESAPI); 160,000 
sets of X-Small Arms Ballistic Inserts (XSAPI) and 160,000 sets of X-
Side Ballistic Inserts (XSBI); and 85,000 Soldier Plate Carrier Systems 
(SPCS).
    I will defer to the United States Marine Corps regarding the status 
of any United States Marine Corp validated requirement for lighter-
weight body armor systems.
    Mr. Bartlett. Does the Army and Marine Corps currently have a 
validated requirement for a new handgun system? Are you currently 
reviewing such a requirement?
    Mr. Markowitz. No, the Army does not have a validated requirement 
for a new handgun system.
    Yes, the Army reviewed the Air Force Modular Hand Gun Capability 
Production Document (CPD) and placed it in a deferred status. The US 
Army Training and Doctrine Command (TRADOC) must provide analytical 
documentation to substantiate any proposed requirement for a new hand 
gun, before the Army will consider adopting or making changes to the 
CPD.
    Mr. Bartlett. Please walk us through the Army and Marine Corps 
Requirements Board process? How often do you meet? What have been the 
major results of your meetings? Are joint requirements generated during 
these meetings?
    Mr. Markowitz and General Fuller. The Army Marine Corps board 
(AMCB) meets approximately 8-10 times per year to discuss ongoing 
issues and efforts in order to improve interoperability among the two 
land component Services. As directed by the AMCB charter, the AMCB 
process begins with issue identification. AMCB stakeholders will 
develop a limited set of high level focused issues emerging from the 
previous Program Objective Memorandum (POM) cycle, OSD Program Review, 
Army Marine Corps Warfighter Staff Talks or as a result of new 
internal/external initiatives. Once the issue is ready for 
presentation, the AMCB follows a three-step review process: 1) First, a 
Council of Colonels reviews and refines the issue for senior leader 
presentation; 2) a 1-2 Star AMCB convenes to ensure the issue is 
sufficiently developed and merits 3-Star consideration; and 3) the 3-
Star AMCB convenes to consider issues, analyze courses of action, and 
recommendations. 3-Star AMCB endorsed recommendations may be forwarded 
to the Chief of Staff of the Army and Commandant of the Marine Corps 
for consideration and potential implementation and may impact key 
programming or operational decisions.
    Over the last twelve months the AMCB has reviewed several topics to 
improve interoperability between the two land components. Examples of 
these topics include: 1) small arms requirements, 2) agreement on 
service small arms ammunition requirements, 3) continued discussion on 
body armor and helmet requirements and 4) refining the Joint Light 
Tactical Vehicle requirements. While Joint requirements are not 
generated at the Army Marine Corps Board, it provides a forum for 
collaboration and discussion on Service and or Joint requirements.
    Mr. Bartlett. What impact is the continuing resolution (CR) having 
on equipping and modernization strategies for dismounted soldiers and 
marines?
    Mr. Markowitz and General Fuller. The Continuing Resolution's 
(CR's) greatest impact to programs is the inability to execute 
according to plan. The Army has consolidated a priority list of 
anomalies for waiver in anticipation of a 12 month CR.
    a. Lack of Fiscal Year 2011 (FY11) funding will cripple the M26 12-
Gauge Modular Accessory Shotgun System program momentum and cause 
dedicated teams to disband due to lack of support funding and 
potentially eliminate the Government source of supply.
    b. The Nett Warrior program will not meet Milestone C scheduled in 
March 2011 and capability fielding will slip for one year (FY13 to 
FY14).
    c. The Counter Defilade Target Engagement FY11 program is unable to 
award contracts with funding limited to the FY10 funding levels. This 
will cause the program schedule to slip to the right by a year, will 
increase contract costs, and jeopardize production funding in the 
future.
    d. The Mounted Soldier System production contracts cannot be 
awarded in FY11 and capability fielding will slip from FY13 to FY14. 
Delay in reprogramming will result in inability to fund:
    (1) Engineering support to support program Milestones (on-going 
Government design efforts, hardware build to support Government 
testing, support contract award, etc.,).
    (2) Award contract for hardware delivery for testing.
    (3) Conduct of Developmental Test/Limited User Test.
    Creates a $270K Support Unfunded Requirements (UFR) for the 
Lightweight .50 Caliber Machine Gun (XM806) in 1st Quarter of FY12 and 
creates an overall Production Cost increase (UFR) of approximately 
$6.3M to achieve the Army Acquisition Objective (27,273).
    Mr. Bartlett. In your opinion do we need to shift the program 
investment focus from the platform to the person? How can we help you 
to accelerate the innovation process for individual equipment?
    Mr. Markowitz and General Fuller. Although I cannot speak for the 
Army overall, I believe we have balanced our investments between 
platforms and individual items to provide today's Soldier with the 
needed capabilities.
    Mr. Bartlett. How are you effectively managing the power 
consumption problem for the individual soldier and marine?
    Mr. Markowitz and General Fuller. The Army continually strives to 
optimize size, weight, and power for Soldier worn/carried systems down 
to the lowest levels allowed by current technology, while still meeting 
military requirements.
    In an effort to manage the variety of power consumers worn/carried 
by the Soldier, we are investigating a Soldier worn integrated power 
solution that will reduce the quantity and different types of batteries 
required by the Soldier. Instead of the Soldier carrying a 72 hour 
supply of multiple battery types, he will be able to power his 
equipment from centralized power sources integrated onto the body 
armor, weapon, and helmet.
    Mr. Bartlett. Do you consider body armor to be a consumable and in 
the same category as articles of clothing? If yes, then why? Please 
elaborate on your response.
    Mr. Markowitz and General Fuller. Body Armor is classified as a 
Type II Clothing and Textile expendable, but recoverable. As such, the 
funding to procure Body Armor, clothing and other protective gear is 
typically included in the Operations and Maintenance (O&M) 
appropriations along with other expendables and is treated as a 
purchase expense. Currently, the O&M appropriation provides flexibility 
to make adjustments to quantities to support the number of Soldiers 
deploying to theater.
    Although the Project Manager is moving towards more rigorous life 
cycle management of the fleet of Soldier protective equipment, the 
current Body Armor requirement is nearly met, therefore, funding with 
O&M is appropriate for sustainment. However, Congressional language is 
in place directing the establishment of a dedicated procurement and 
Research, Development, Test and Evaluation line for Body Armor.
    Mr. Bartlett. Raising the level of protection. I view this as 
critical because of the relatively modest R&D investment DOD makes in 
body armor and other protective equipment. Because the contracts 
require the destruction of an entire lot when there is a lot failure 
and prohibits rework industry has an enormous incentive to ensure each 
lot passes therefore I understand they are adding redundancy and weight 
to their designs. Can you tell me do you have a requirement for 
lighter-weight body armor plates and when and by whom was the composite 
body armor requirement last reviewed and validated? Also, is it true 
that the contracting strategy employed by DOD has selects winners based 
on the lowest cost for a qualified product with no incentive for 
lighter weight or higher levels of protection and if so is this the 
best method for purchasing the best body armor at the lowest weight?
    General Fuller. No, the Army does not currently have a requirement 
for lighter-weight Body Armor plates. The current requirement for Body 
Armor, the Modular Body Armor Operational Requirement Document, was 
validated in 1999, however, the overall Body Armor System has been 
updated via directed requirements several times in the last ten years 
based on operational needs, technology improvements, and materiel 
improvements to various components of the Body Armor System. The Body 
Armor requirement was last reviewed by the U.S. Army Training and 
Doctrine Command (TRADOC) as part of a holistic Body Armor requirement 
review directed by the Headquarters, Department of the Army (HQDA) G-3/
5/7 in June 2010. TRADOC completed its review in December 2010 and 
indicated it will complete an update to the current Body Armor 
requirement and provide it to HQDA for staffing by the end of 4th 
Quarter of Fiscal Year 2011.
    Regarding the contract strategy, the Army awards new contracts 
based on the Best Value to the Government considering technical, 
schedule, past performance, and price. During the solicitation phase, 
vendors have the opportunity to present lighter-weight Body Armor 
solutions, but must meet the Army's Body Armor specifications. Once the 
contracts are awarded, the Contracting Officer can consider all of the 
same or even additional factors in the award of follow-on delivery 
orders to qualified contractors.
    Mr. Bartlett. In terms of body armor acquisition, how can we 
achieve better protection with less weight and how do you incentivize 
industry?
    General Fuller. The Body Armor industrial base has hit a technical 
``wall'' to achieve a lighter more flexible Body Armor solution. No new 
advances in lighter ballistic materials are expected for the next five 
years given the current levels of Government and industry Research and 
Development investments. The only option to provide Soldiers with 
relief from the weight of Body Armor at this time is to make tradeoffs 
between two aspects: Removing components of ballistic protection and 
the area of coverage (i.e., Side Plates). Commanders must balance the 
level of Soldier protection with the increased mobility gained from 
lighter Body Armor. Reducing area of coverage presents increased risk 
of injury to unprotected areas of the Soldier, however, it provides the 
Soldier greater mobility, which may result in greater survivability in 
some terrains or combat situations.
    The Army will continue to work with both Government and industry 
partners to quickly assess and if possible adopt new technologies. The 
Army is aggressively using the Small Business Innovation Research 
Program to promote the role of small business in support of new Body 
Armor initiatives. A new requirement is in process for the next 
generation of Soldier protection, and it is expected to be approved at 
the end of Fiscal Year 2012. The focus of the new requirement will be 
to develop a personal protective system that is lighter weight and 
tailorable to mission requirements.
    Mr. Bartlett. The Army and Marine Corps have formal and informal 
Tactics, Techniques and Procedures for doing about everything. Often 
the best, most effective way of doing something in the Army and Marine 
Corps is figured out by the soldiers and marines in the field and later 
is adopted by the military and taught in the school house. What lessons 
have been learned thus far from operations in Afghanistan about 
dismounted, backpack operations in rugged and high altitude terrain? 
What if anything been done to improve the physical fitness of soldiers 
and marines to enable them to endure the weight of the pack?
    General Fuller. Lessons learned regarding dismounted, backpack 
operations in Afghanistan fall into three categories. The primary and 
most critical lesson learned is the need for lighter equipment. The 
Army continues to assess options in this arena and is constantly 
evaluating operational needs to support the warfighter. Second, is the 
role leadership plays in correctly determining load requirements based 
on the mission, weather and terrain. Many of these lessons learned and 
best practices have been codified into a Small Unit Operations in 
Afghanistan Handbook published to assist Soldiers and small-unit 
leaders in preparing for the difficulties and challenges they will face 
when deployed in unique geographic areas including rugged and high 
altitude terrain. It is incumbent upon leaders to correctly evaluate 
mission requirements and tailor as needed, special equipment to meet 
the task. Third, is the need to train to the conditions of the 
anticipated environment. Training conducted on a similar terrain for up 
to 45 days prior to deployment will substantially reduce the time 
requirement for acclimation to the operational theater. The unit 
mission and mission-essential task list (METL) drive the specificity of 
physical readiness training. Unit commanders who identify foot marching 
under fighting or approach march load, as a METL requirement, 
incorporate progressive foot marching and total body muscular strength 
training, along with environmental considerations; such as altitude/
temperature, as they prepare for full spectrum operations.
    Physical fitness is not the key determinant to Soldier performance 
in rugged high altitude terrains, however, it plays such a critical 
role in training for and executing all areas of theater operations that 
the Army implemented a new physical readiness training doctrine in 
August 2010. This new system of training was adapted to address new and 
emerging physical fitness requirements based on feedback from Soldiers 
operating in theater. Recently updated, the physical readiness training 
doctrine links concepts found in Field Manual 3-0, Full Spectrum 
Operations, and applies the principles of training specified in Field 
Manual 7-0, Training for Full Spectrum Operations. The key outcome of 
this linkage is the integration of physical readiness training to 
ARFORGEN and Warrior Tasks and Battle Drills. The new physical training 
doctrine provides for a balanced training program that better prepares 
Soldiers for task performance and provides injury control by 
recommending exercise intensity, exercise volume, and training and 
recovery within progressive training schedules. Conducting operations 
in rugged and high altitude and urban environments underscores the 
importance of trunk stability, total body muscular strength training, 
progressive load carriage, and the overall importance of posture and 
body mechanics on foot marching and load carriage. This new doctrine is 
a tool for Commanders to use to create a high performance physical 
training program, because ultimately it is the Commander who carries 
the responsibility for preparing their Soldiers for the physical 
challenges of the operational environment.
    Mr. Bartlett. Traumatic Brain Injury (TBI) continues to be the most 
prevalent injury from Iraq and Afghanistan. How are PEO Soldier and 
Marine Corps Systems Command helping to mitigate these injuries?
    General Fuller. Program Executive Office Soldier's effort to 
mitigate or protect Soldiers from the effects of blast, ballistic and 
blunt impact events on the brain is focused in two areas; accurately 
measuring the blast, blunt impact and overpressure caused by Improvised 
Explosive Devices so that a correlation can be made to the actual brain 
injury and the development of an improved helmet pad suspension system.
    The U.S. Army is developing and testing a second generation Helmet 
Sensor. The small lightweight helmet-mounted sensor will record and 
store linear and rotational accelerations and over-pressures that occur 
when Soldiers are exposed to high energy induced blast impulses and 
impacts. The data collected from the sensor will be used to support 
Medical Research and Materiel Command development of an objective 
exposure monitor/head injury screening tool.
    Additionally, the Army is executing an effort to improve the Army 
Combat Helmet (ACH) pad suspension system by increasing blunt impact 
protection, stability and Soldier comfort. The current suspension 
system provides blunt impact protection of a maximum 150 g's at 10 feet 
per second (fps). The objective, currently in testing under a Small 
Business Innovation Research contract, is to improve blunt impact 
protection to a maximum of 150 g's at 14.1 fps. This translates to a 
100 percent increase over the current capability. The new suspension 
system will be compatible with the ACH and Enhanced Combat Helmet. The 
Army intends to issue a Helmet Pad Request for Proposal for the 
improved impact protection standard in 4th Quarter of Fiscal Year 2011 
(4QFY11) and plans for production and fielding by 2QFY12.
    Mr. Bartlett. What is the prevalence of injuries that can be 
attributed to the weight of the load that soldiers and marines must 
carry?
    General Fuller. I am not aware of any current studies that 
demonstrate a direct cause and effect relationship between load carry 
weight and musculoskeletal injury. Additionally no studies exist that 
quantify an actual number of injuries directly related to the weight of 
a load that a Soldier must carry during deployment. Most injuries are 
overuse/chronic in nature and are, thus, difficult to link to specific 
activities such as load carry. The U.S. Army Research Institute of 
Environmental Medicine is conducting survey studies to determine the 
potential association of load carriage and injuries during deployment. 
Additionally, the U.S. Army Public Health Command (Provisional) is 
working to include medical coding for cause of injury as a mandatory 
input into the electronic health record. This would require providers 
to code a cause of injury when one can be determined.
    Mr. Bartlett. Are the type of injuries that are caused by heavy 
loads generally the sort that heal fairly quickly or are we facing 
large numbers of long term rehabilitation and permanent disability?
    General Fuller. It is difficult to draw any scientifically valid 
conclusions about long-term effects and rehabilitation requirements as 
a result from load carry. We do not currently have long-term data 
linking heavy load carriages to chronic musculoskeletal complaints 
amongst Soldiers nor to disability. The U.S. Army Research Institute of 
Environmental Medicine (USAREIM) and U.S. Army Public Health Command 
(Provisional) published an article in Military Medicine in 2004 on the 
topic of Soldier Load Carriage. In that article, the authors listed the 
most common injuries associated with load carry marches for a 20 km max 
effort march and a 5-day 161 km march. Acute musculoskeletal injuries 
associated with these marches included back pain, foot pain, sprains/
strains, knee pain, and stress fractures. USAREIM is currently studying 
the re-occurrence rate of low back pain in deployments.
    Mr. Bartlett. How many marines, and how many soldiers are currently 
in a non-deployable status due to injuries that can be linked to the 
weight of the individuals basic load.
    General Fuller. There are no current data that directly link a 
Soldier's deployability status to basic load weight. Although 
musculoskeletal injuries are the leading reason for a unit to place a 
Soldier in a non-deployable status, the cause of these injuries is not 
presently captured.
    Mr. Bartlett. Does the Army and Marine Corps plan to procure a new 
handgun? Is a new handgun a high priority for the Army and Marine 
Corps?
    General Fuller. The Army has not decided to procure a new handgun, 
nor has it adopted or validated any requirements documentation to 
support buying a new handgun. Because of funding lead time, the Army is 
executing planning activities for funding in case the Army leadership 
determines there is a need to pursue a new hand gun.
    Because the Army has not decided to procure a new handgun, the 
question on priority cannot be addressed. A cost benefit analysis and 
usage analysis is required to inform the decision to buy more M9s, and/
or replace it with a new hand gun.
    Mr. Bartlett. Please provide the committee with some of the 
operational feedback you are receiving regarding the performance of the 
M4 in Iraq and Afghanistan?
    General Fuller. The Army continuously and actively solicits Soldier 
feedback on systems and equipment utilized in their deployments. 
Recently, 358 Soldiers from an Infantry Brigade Combat Team returning 
from Afghanistan participated in a feedback session and overall, 
relayed that they are satisfied with the combat effectiveness of their 
weapons. Of the 358 surveyed, 322 Soldiers engaged enemy targets with a 
weapon system. Of those 322 Soldiers who engaged enemy targets, 276 
Soldiers reported having experience with the M4 or the M4 with rail 
adaptor system (known as the M4 Modular Weapon System) and found it to 
be effective in combat.
    Mr. Bartlett. We are hearing of complaints regarding the current 
pad suspension system being too hard and that it has a propensity to 
fall apart. What types of internal pad suspension systems will be used 
in the enhanced combat helmet? Are you hearing similar complaints 
regarding the performance of these pad suspension systems?
    General Fuller. Based on three separate feedback sessions conducted 
in March 2009, March 2010 and January 2011 with returning units who 
served in Operation Enduring Freedom and Operation New Dawn feedback 
shows that the Army Combat Helmet (ACH) pad was rated very effective. 
There were comments from Soldiers on the pad suspension system, but the 
trend does not indicate a major problem with the issued helmet pad 
suspension system. Regarding the Enhanced Combat Helmet (ECH), the Army 
intends to use the helmet pad suspension system that is currently being 
issued for the ACH.
    At the same time, however, the Army is executing an effort to 
improve the ACH pad suspension system by increasing blunt impact 
protection, stability and Soldier comfort. The current suspension 
system provides blunt impact protection of a maximum 150 g's at 10 feet 
per second (fps). The objective, currently in testing under a Small 
Business Innovation Research contract, is to improve blunt impact 
protection to a maximum of 150 g's at 14.1 fps. This translates to a 
100 percent increase over the current capability. The new suspension 
system will be compatible with the ACH and ECH. The Army intends to 
issue a Helmet Pad Request for Proposal for the improved impact 
protection standard in 4th Quarter of Fiscal Year 2011 (4QFY11) and 
plans for production and fielding by 2QFY12.
    Mr. Bartlett. I understand the Army is going to initiate a best 
value, full and open competition for a new carbine this year to 
potentially replace its current inventory of 500,000 M4 carbines. If I 
understand this program correctly, a new carbine will be procured if a 
candidate weapon can outperform the Army's current carbine, the M4. 
This committee has always strongly supported full and open competition.
    a) Given the magnitude and scope of this program why did you choose 
not to conduct a comprehensive analysis of alternatives before 
initiating the program?
    b) Is the Individual Carbine envisioned to be a non-developmental 
weapon or a weapon that will be tested and developed?
    c) Will the Individual Carbine be a jointly developed program with 
the Marine Corps?
    General Fuller. a) The Army waived the regulatory requirement for 
an Analysis of Alternatives (AoA) on 10 December 2010. It was 
determined that an AoA would not produce relevant information in 
support of the program since the Key Performance Parameters and Key 
Systems Attributes were baselined on the current M4 Carbine capability 
as directed by the Army Requirements Oversight Council. Before a Full 
Rate Production decision is made within the Individual Carbine (IC) 
program, the Army will conduct an analysis to determine whether the IC 
or the existing M4A1 Carbine provides the best value for the Army. This 
analysis will use actual data collected during Test and Evaluation of 
the IC candidates.
    b) The Individual Carbine will be a non-developmental weapon.
    c) Although the United States Marine Corps actively participated in 
the development of the Individual Carbine Capability Development 
Document, there are no plans for the Individual Carbine to be a jointly 
developed program with the Marine Corps at this time.
    Mr. Bartlett. I understand that the Army had an estimated 267,000 
night vision goggles (NVGs) in inventory in 2003, and now has 
approximately 681,000 NVGs in its inventory in 2011. The large increase 
in procured systems occurred in response to evolving requirements 
associated with Operation Enduring Freedom and then Operation Iraqi 
Freedom. As you know, industrial base capacity had to be expanded to 
meet these increased requirements, since there exists only a limited 
number of companies capable of producing this technology. Given the 
constrained budget environment what concerns do you have about the 
ability to maintain NVG production capacity and technological 
capability? What planning, review, and assessment are you undertaking 
to better understand these challenges in order to sustain this critical 
industrial base? What are your respective services' research & 
development and procurement budgets for NVGs in the FY 12 budget 
request, as well as within the future years defense program?
    General Fuller. Night vision systems afford our Warfighters 
unmatched situational awareness, yielding improved survivability and 
lethality in all operational environments. Based on the volume of 
systems already procured, the Army does foresee a significant reduction 
in production quantities for most current night vision technologies. 
Army production deliveries are on schedule to complete in 4th Quarter 
of Fiscal Year 2012 (4QFY12). Current estimates indicate that FY13-FY17 
Image Intensifier Tube sustainment quantities are less than 50 percent 
of peak production and less than pre-facilitization quantities beyond 
FY17. Other night vision technologies are also experiencing completion 
of the Department of Defense (DOD) requirements and reduction in 
demand. These changes in demand level raise the following concerns:
    a. Potential cost increase due to lower sustainment volume.
    b. Potential workforce reductions and industrial base consolidation 
due to reduced need-thus impacting competition.
    c. Potential shift of industrial focus to lower performance Night 
Vision Goggle Systems designed for Commercial and Foreign Military 
Sales, increasing industrial viability and market share. This shift of 
focus may result in reduced capability and/or willingness to meet DOD's 
higher performance requirements.
    d. Decreased ability for industry to respond to DOD urgent 
requirements based on loss of expertise and hi-performance production 
capability.
    In FY12 there is a $9.8 million dollar request in Research, 
Development, Test and Evaluation for Soldier night vision devices. This 
development effort will support completion of product qualification 
testing on the current Enhanced Night Vision Goggle (ENVG). It will 
also support integration, testing, and evaluation of technologies to 
further enhance night vision and provide interoperability with other 
systems such as the Thermal Weapons Sight and Nett Warrior. In 
addition, the FY12 budget request includes $117.4M in procurement for 
ENVG. This will be used for the continued procurement of ENVG.
    Mr. Bartlett. How much weight do the Land Warrior and Nett Warrior 
components add to the load the individual soldier must carry? In your 
opinon, is this additional weight offset by the additional capability 
provided? What is the objective weight for this technology?
    General Fuller. Deployed LW systems weigh between 11.6 pounds (lbs) 
and 9.6 lbs for a 12 hour mission, with improvements stemming from 
refining the essential configuration over time. The three Nett Warrior 
pre-production prototypes as tested in the Limited User Test from 
September to November 2010 weigh 12.5 lbs for a 24 hour mission, all 
less than the threshold weight of 14 lbs. The current objective weight 
is 10 lbs.
    The wearable LW/NW system key advantage is fightability. The 
increase in situational awareness allowing for faster and more accurate 
decisions in the tactical fight clearly offsets the system weight, as 
demonstrated in the following vignette. A squad led by Staff Sgt. Sam 
Lee scrambled out in pursuit of a high-value target in a nearby 
building. But the last-minute change meant the house didn't sit in the 
direction they expected. ``At that point,'' Lee said, ``I'd normally 
have to stop, literally take out a compass, and orient myself,'' 
perhaps leaving the target precious seconds to escape, or worse, giving 
enemy crosshairs time to settle on his troops. Instead, without 
stopping, he flipped down an eyepiece and viewed a computer screen with 
an overhead GPS image of the area. With the target location plotted in 
advance, the team moved rapidly through the darkness.
    ``We moved in and took the building with no delay at all,'' Lee 
said.
    Staff Sgt Lee was able to lead his squad to the right place, at the 
right time, with the right equipment making them more effective, more 
lethal and more survivable in the execution of their combat mission.
    Mr. Bartlett. Who determined the Nett Warrior requirement? Were 
operators involved in the development?
    General Fuller. The Ground Soldier System Increment I--Nett Warrior 
system requirement evolved directly from earlier developmental testing 
and in-theater operational use of the precursor Land Warrior (LW) 
system. The Army's combat developers within US Army Training and 
Doctrine Command (TRADOC) at the U.S. Army Maneuver Center of 
Excellence (MCoE), Fort Benning, Georgia, utilized all preceding 
developmental and operational lessons learned to develop and document 
the current Nett Warrior requirement in the Ground Soldier System 
Increment I--Nett Warrior Capability Development Document which was 
Army and Joint Staff approved in October 2010.
    Yes, operational elements were specifically involved in the 
development of the Nett Warrior requirement. Dismounted Soldiers within 
small units (from squad to company and battalion level) have deployed 
to both Operation Iraqi Freedom and Operation Enduring Freedom with the 
precursor Land Warrior (LW) System, and their lessons learned and 
operational insights were applied to the requirements definition within 
the existing Ground Soldier System Increment I--Nett Warrior system.
    Mr. Bartlett. Are there ways to accelerate the XM25 program? What 
are the constraints to increasing production?
    General Fuller. The current profile reflects Army prioritization. 
However, the XM25 program can be accelerated with additional funding 
for the current Engineering and Manufacturing Design Phase and the 
facilitation of production lines in Fiscal Year 2012 (FY12) and FY13. 
The primary constraint to increasing production is the lack of existing 
production lines/facilities.
    Mr. Bartlett. What is the current status of X-SAPI and XSBI and 
what is the long term acquisition plan for these programs?
    General Fuller. The Army's Procurement Objective is 160,000 sets of 
X Small Arms Protective Inserts (XSAPI) including procurement of 
160,000 sets of X Side Ballistic Inserts (XSBI) to support Operation 
New Dawn and potential future requirements. The Army has accepted 
119,934 sets of XSAPI plates to date and delivered 97,500 sets to 
theater. Initial XSAPI fielding to Iraq is complete. A total of five 
contracts were awarded for the production of 160,000 sets of XSBIs in 
September 2010--one contractor was terminated after failing the First 
Article Test. Initial production deliveries were received in March 2011 
and deliveries should be completed in the 1st Quarter of Fiscal Year 
2012. Once the Army Procurement Objective is met, the Defense Logistics 
Agency will provide sustainment for the XSAPI and the XSBI.
    Mr. Bartlett. The Committee understands that the Army and Marine 
Corps have funded efforts to develop Lightweight Small Arms 
Technologies to include a machine gun, rifle, and both case-less and 
cased telescoped ammunition. The Committee also understands that 
development efforts have proven successful, with estimated weight 
reduction of 40% on the lightweight machine gun from the current M249 
and more than 40% on the cased telescoped ammunition from the current 
ammunition. What plans does the Army and Marine Corps have for 
transitioning this promising technology from research and development 
into production so that the dismounted soldier can benefit from the 
weight reduction without losing any lethality?
    General Kelley. The Marine Corps, in partnership with the Office of 
Naval Research (ONR), the Joint Service Small Arms Program (JSSAP) 
Office and U.S. Army Research and Development Command (RDECOM), is 
pursuing Lightweight Small Arms Technology (LSAT) in the form of case-
less and case-telescoped 5.56mm ammunition with the potential to 
provide 40% to 50% weight savings over current brass cased 5.56mm 
ammunition. If successful, this technology may be applied to other 
calibers of ammunition. The new lightweight ammunition is not 
compatible with existing weapons and will require a significant 
investment for the development and fielding of new small arms that are 
compatible with case-less or case-telescoped ammunition. Prototype 
weapons have been built to demonstrate the case-telescoped capability, 
but there are engineering challenges associated with firing the case-
less ammunition and the firing mechanism is currently in pre-prototype 
development. Additionally, the Marine Corps is engaged with the Joint 
Service development of the Joint Small Arms Modernization Initial 
Capabilities Document (ICD) that will be the foundation requirement for 
enhanced small arms weapons, optics, enablers and ammunition in the 
2015-2025 timeframe.
    Mr. Bartlett. In terms of body armor acquisition, how can we 
achieve better protection with less weight and how do you incentivize 
industry?
    General Kelley. The Marine Corps has partnered with industry, 
government and academia through the Office of Naval Research and the 
Naval Research Lab to develop new technologies and materials that will 
reduce the weight of body armor or increase capability at the same or 
lighter weight.
    The Marine Corps also coordinates its efforts closely with the Army 
to prevent duplication of effort and increase joint exploration of 
promising technologies. These combined efforts target the development 
of lighter-weight body armor technologies and designs.
    The Marine Corps recognizes the potential innovations that small-
size companies can offer and is actively engaged with these businesses 
through Small Business Innovation Research (SBIR) projects. For 
example, the Next Generation Helmet System is a Marine Corps SBIR 
effort, with Army support, which is looking at novel helmet system 
designs, shell shapes, and suspension and retention systems that will 
provide an optimized solution to protect against a myriad of 
operational threats (blast, ballistic, and blunt impact) while 
improving user comfort. Additionally, we are supporting an Alternative 
Lightweight Solution SBIR effort to determine the feasibility for 
Enhanced Small Arms Protective Insert performance at reduced weights.
    We communicate with industry in a number of forums. Every two years 
we hold an Advanced Planning Brief to Industry, where all of those who 
do business with the United States Marine Corps, including academia and 
government labs attend. At this event, we brief the Marine Corps' 
acquisition and funding plans. In addition, we co-host the Modern Day 
Marine Exposition. At this event, we highlight the needs and way ahead 
of the Marine Corps to industry.
    Mr. Bartlett. The Army and Marine Corps have formal and informal 
Tactics, Techniques and Procedures for doing about everything. Often 
the best, most effective way of doing something in the Army and Marine 
Corps is figured out by the soldiers and marines in the field and later 
is adopted by the military and taught in the school house. What lessons 
have been learned thus far from operations in Afghanistan about 
dismounted, backpack operations in rugged and high altitude terrain? 
What if anything been done to improve the physical fitness of soldiers 
and marines to enable them to endure the weight of the pack?
    General Kelley. Survey data collected from Marines returning from 
theater reflect that Marines are not using their large backpacks as 
often during combat operations. Presently, squads carry their large 
backpacks when conducting observation post missions because these 
missions require a longer duration away from logistical support. Due to 
the logistical support structure maturing in Afghanistan, the use of 
the large backpack to sustain forces for daily operations has dropped 
significantly. Most dismounted Marines only carry a smaller assault 
pack when on routine missions and have access to regular resupply.
    Feedback from Marines in Afghanistan indicates that our current 
large backpack is complex and does not integrate well with issued body 
armor. The feedback also indicates that the daypack was too small to 
carry the additional ammunition and supplies Marines need to conduct 
routine missions. Consequently, we have developed and plan to field a 
new large backpack that is less complex and has a larger day pack. This 
new pack, the USMC Pack, is a modified design based on the Army 
developed Airborne Pack. The USMC Pack features load lifting shoulder 
straps, an external composite frame that integrates better with body 
armor and provides for more versatility when getting in and out of 
vehicles.
    As America's expeditionary force in readiness, an essential part of 
the Marine Corps culture is to train and condition our Marines for 
combat. Recent combat operations have reaffirmed that our best 
investment as a service is in our people. Some of the environmental 
challenges of combat operations reinforce the need to ensure that our 
Marines are as well prepared physically as we can possibly make them. 
In November 2006 we published our Functional Fitness Concept which 
describes a new approach to physical training that resulted in a major 
changes in the way Marines view exercise and how units build training 
programs to prepare their people for combat. This approach focuses on 
preparing Marines for the physical challenges of combat operations and 
preventing injury.
    Our fitness program is integrated into a multi-tiered approach 
ranging from our physical fitness standards to pre-deployment training. 
One way we measure a Marine's readiness in a combat operational 
environment is through the Combat Fitness Test (CFT). The CFT is 
designed to keep Marines ready for the physical rigors of the 
contemporary combat environment. The CFT was implemented on October 1, 
2009.
    In addition, Marine units scheduled to deploy to mountainous areas 
complete individual and unit training at the Marine Corps Mountain 
Warfare Training Center located in the Sierra Nevada Mountains. We are 
mindful that Marine units get specific missions, and as a result they 
are provided conditioning based on their mission profile.
    Mr. Bartlett. Traumatic Brain Injury (TBI) continues to be the most 
prevalent injury from Iraq and Afghanistan. How are PEO Soldier and 
Marine Corps Systems Command helping to mitigate these injuries?
    General Kelley. We are trying to mitigate the effects of Traumatic 
Brain Injury through our Suspension Material and Retention Technology-
Test and Evaluation (SMART-TE) efforts. SMART-TE is developing improved 
testing methods to evaluate blunt trauma as well as other factors such 
as comfort and retention. As part of this effort, the Marine Corps, in 
collaboration with the Army, is testing the latest in suspension 
systems in order to evaluate the various commercial pads and retention 
systems with the goal of ultimately providing greater protection from 
blunt trauma for our Marines and Soldiers.
    Additionally, the Next Generation Helmet System is a Marine Corps 
Small Business Innovation Research effort, with Army support, that is 
reviewing novel helmet system designs, shell shapes, and suspension and 
retention systems that will provide an upgraded solution to protect 
against a myriad of operational threats (blast, ballistic, and blunt 
impact) while improving user comfort.
    Mr. Bartlett. What is the prevalence of injuries that can be 
attributed to the weight of the load that soldiers and marines must 
carry?
    General Kelley. Available data indicates that a large percentage of 
non-battle injuries are due to musculoskeletal injuries (approximately 
30%). Weight load may well play a role in some of these injuries, but 
its exact contribution is not certain as data elements to perform an 
appropriate analysis have not been systemically collected. Going 
forward, the Marine Corps, in collaboration with the Naval Health 
Research Center, is currently evaluating what data elements are 
essential to better answer this question. The Marine Corps recognizes 
that musculoskeletal conditions and injuries are significant risks to 
the combat effectiveness of the force and is addressing the possible 
contributing factors, to include lightening the load efforts, through a 
strong resiliency program that addresses medical as well as non-medical 
interventions to improve the health and well-being of Marines.
    Mr. Bartlett. Are the type of injuries that are caused by heavy 
loads generally the sort that heal fairly quickly or are we facing 
large numbers of long term rehabilitation and permanent disability?
    General Kelley. Most musculoskeletal injuries are of a temporary 
nature and heal allowing service members to return to full duty. Acute 
sprains, strains, and stress fractures are injuries that heal fairly 
quickly and theoretically could be linked to heavy loads. Only 20% of 
outpatient musculoskeletal and injury visits result in duty 
limitations. The Marine Corps has not noted a significant change in 
referral patterns to the Physical Evaluation Board that would imply 
that large numbers of combat load injuries are causing permanent 
disability. Current research and expert panels are looking into risk 
factors, causes, prevention strategies, and rehabilitation practices 
for musculoskeletal conditions to determine the most effective way to 
minimize the occurrence and effect of these conditions on the health 
and well-being of Marines.
    Mr. Bartlett. How many marines, and how many soldiers are currently 
in a non-deployable status due to injuries that can be linked to the 
weight of the individuals basic load.
    General Kelley. At this time, available data does not establish a 
clear link between non-deployable status and injuries that can be 
attributed to the weight of the individual's basic load. Marine Corps 
Systems Command has conducted post deployment surveys with select 
infantry battalions specifically asking about weight-related injuries 
that has not found any specific combat load weight issues. Specific 
studies are underway at the Naval Health Research Center to better 
understand the effect of the combat load on Marines as well as further 
delineation of the causes of musculoskeletal conditions and injuries.
    Mr. Bartlett. Does the Army and Marine Corps plan to procure a new 
handgun? Is a new handgun a high priority for the Army and Marine 
Corps?
    General Kelley. The Marine Corps has no immediate plans to procure 
a new handgun for general use. We participated with the other Services 
in the development and validation of an Air Force-led Modular Handgun 
System requirement. We are conducting a capability assessment that will 
inform future investment decisions for a new handgun capability.
    Mr. Bartlett. Please provide the committee with some of the 
operational feedback you are receiving regarding the performance of the 
M4 in Iraq and Afghanistan?
    General Kelley. The Modular Weapon System M4 carbine variant is 
selectively fielded to Marines requiring shorter weapons to include 
officers up to the rank of lieutenant colonel and staff non-
commissioned officers. The weapon system has received good reviews from 
Marines deployed to both Iraq and Afghanistan.
    Most of the Marines in the Light Armored Reconnaissance Battalion 
in Afghanistan reported that they were satisfied with the M4 rifle and 
associated optics. For longer range engagements, one scout leader 
wanted some of his scouts to carry M-16s vice the M4 and at least one 
of the squad automatic weapons in each section to be the long-barreled 
version.
    Marines from 2d Battalion, 24th Marines reported on their first 100 
days of Operation Iraqi Freedom in June 2008 that the M4 is much better 
suited for the kinetic fight. It is also of great use for a mostly 
mobile company due to constantly getting in and out of vehicles. 
Additionally, it reduces the weight each Marine has to carry, even 
though it is just by a little. These Marines asked the Marine Corps to 
issue the M4 Rifle to all infantrymen.
    Additional comments from battalion level operations in Afghanistan 
between 2004-2007: The M-4 carbine is a reliable weapon, and its size, 
weight, easy cleaning, and maintenance are all advantages for foot 
mobile infantry under harsh conditions. In military operations in urban 
terrain (MOUT) environments, and with a force that is largely vehicle-
borne, this weapon has proved its worth. It is a great weapon for close 
quarter battle, with its retractable stock and shorter barrel, and 
makes convoys much more responsive to ambushes, improvised explosive 
devices (IEDs), or other threats, while not sacrificing much in the way 
of range or accuracy. The M-4 should be issued to all drivers, radio 
operators, staff members, staff noncommissioned officers, officers, and 
combat service support Marines.
    The following is taken from 1st Battalion, 6th Marines OIF from 
September 2006-May 2007. In survey responses, 52% of the respondents 
stated that they carried an M-16 (A2/4) as their primary weapon and 17% 
stated they carried an M4. Of those that carried an M16 (A2/4), 19% 
stated they would prefer to be armed with the M-16 and 71% preferred to 
be armed with an M4. Of those armed with the M4, 98% stated they 
preferred to be armed with the M4 and none preferred to be armed with 
the M-16. Comments on the M-4 in interviews included the following:
    ``The M-4 was awesome. The way we operate out of vehicles, with as 
much gear as we carry, we are much more effective with a shorter, 
lighter weapon that is more maneuverable. The long range shooting is 
being picked up by having designated marksmen.''
    ``The M-4 is a very, very good weapon in close quarter combat. I 
understand the Marine Corps is moving to get M-4s to the leaders, but I 
think the Marines who are actually going into the small rooms will 
benefit from them also.''
    In a survey of over 1300 Marines on individual and unit equipment 
conducted in November and December 2006:
    - 96% preferred the M4 carbine over the M9/9A1 service pistol as 
their primary weapon.
    - Given a choice between the two weapons, 82% preferred the M4 
carbine over the M16A4 service rifle as their primary weapon.
    Mr. Bartlett. We are hearing of complaints regarding the current 
pad suspension system being too hard and that it has a propensity to 
fall apart. What types of internal pad suspension systems will be used 
in the enhanced combat helmet? Are you hearing similar complaints 
regarding the performance of these pad suspension systems?
    General Kelley. The Team Wendy pads, presently used in the 
Lightweight Helmet, will be used in the Enhanced Combat Helmet. The 
Team Wendy pad is proven to be superior in blunt trauma performance 
testing and is in compliance with the Javits-Wagner-O'Day Act (41 
U.S.C.46-48c) as a National Institute for the Blind/National Institute 
for the Severely Handicapped procurement list item. While the Marine 
Corps System Command has received no official Product Quality 
Deficiency Reports, as of this time, the Marine Corps is participating 
with the Army to evaluate new suspension systems (pad systems) and 
retention systems (chin straps) to ensure that we optimize these 
systems to address both blunt trauma protection and user comfort.
    Mr. Bartlett. Do the Marine Corps plan to participate in the Army's 
new individual carbine program? If not, then why not? Will the 
Individual Carbine be a jointly developed program with the Marine 
Corps?
    General Kelley. Yes. Marine Corps combat developers actively 
participated in the Joint Integrated Product Team that developed 
Individual Carbine (IC) requirements and will closely monitor IC 
progress. Marine Corps Systems Command will also participate in the 
source selection team for the Individual Carbine. In parallel with the 
IC effort, we are developing requirements and acquisition plans to 
improve our current M16A4 rifle and M4 carbine with significant product 
improvements. Future decisions to procure the IC will be based on its 
achieved relative capability increase over our current weapons.
    We are also closely aligned with U.S. Army planned improvements to 
the M4, which include ambidextrous selector switch, heavy barrel, 
improved trigger assembly, improved bolt/bolt carrier assembly, and a 
free floating rail system. These improvements are designed to enhance 
performance, reliability, and sustainability of the M4. The initial 
development of these upgrades is accounted for in our current budget.
    Mr. Bartlett. Do the Marine Corps plan to participate in the Army's 
XM25 program? Will the Marine Corps procure limited systems to 
operationally test and evaluate?
    General Kelley. Marine Corps combat developers are engaged with 
their U.S. Army counterparts and closely monitor Counter Defilade 
Target Engagement (CDTE) XM-25 development. The CDTE capability 
demonstrated substantial promise during the U.S. Army's recent Forward 
Operational Assessment (FOA) in Eastern and Southern Afghanistan, and 
we remain very interested in the capability. As the CDTE progresses 
beyond Milestone B, we will assess system capabilities and examine 
affordability options. The results of future U.S. Army operational 
assessments at the battalion level will certainly inform our decisions 
regarding this capability.
    Mr. Bartlett. The Army's Nett Warrior program is not a joint 
program. Are the Marines pursuing a similar program? If so, can you 
please provide details on that program. What is the Marine Corps's 
opinion of Nett Warrior and were Marines involved in any of the limited 
field user testing of the legacy Land Warrior system as well as the 
current Nett Warrior, Increment 1 configuration?
    General Kelley. The Marine Corps has been involved with both the 
Land Warrior and Nett Warrior Increment 1 programs from the beginning, 
participating as a member on the Source Selection Evaluation Boards for 
each. Involvement with Land Warrior included membership in Integrated 
Product Teams, participation in design reviews, observing trials, and 
utilizing Land Warrior in a Marine user evaluation at Camp Lejeune, NC.
    We have had similar involvement with Nett Warrior Increment 1 to 
include the procurement of 15 Nett Warrior systems on the Army contract 
in order to allow the Marine Corps to conduct user evaluations and 
capability analysis independently.
    The Marine Corps is currently a participant in the Joint Battle 
Command Platform (JBC-P) program which provides a similar capability to 
Nett Warrior Increment 1, but in a handheld form factor. Based on the 
Marine preference to pursue a handheld device, we are working with the 
US Army to develop the JBC-P handheld as the program of record to 
provide for a small unit situational awareness capability. The Army 
Program Manager for Nett Warrior is also the hardware Program Manager 
for JBC-P, and their intent is to use JBC-P as part of the technology 
insertions for Nett Warrior in the future.
    Future decisions to procure the full Nett Warrior will be dependent 
on the outcome of evaluations and assessments against Marine Corps 
mission requirements.
    Mr. Bartlett. a) Please walk us through the Army and Marine Corps 
Requirements Board process?
    b) How often do you meet?
    c) What have been the major results of your meetings?
    d) Are joint requirements generated during these meetings?
    General Kelley and General O'Donohue. a) Congressman, what I 
believe you are referring to as the Army and Marine Corps Requirements 
Board is really just called the Army Marine Corps Board or AMCB for 
short.
    There are 4 steps to topics coming before the AMCB. They are:
    1. Issue Identification: Topics are high level Army/USMC focused 
issues (e.g., concepts, capabilities/requirements, programs). These 
issues come from the previous POM cycle, OSD Program Review, or as a 
result of new internal/external initiatives. This list is ever changing 
as emergent topics arise.
    2. Issue Development: The AMCB will assign issues to responsible 
Subject Matter Expert (SME) teams and provide guidance concerning 
scope, timing and desired output. These teams will then develop 
assessments incorporating capabilities, service approved requirements 
and cost.
    3. Issue Review. AMCB issue briefings will use a two-step review 
process. A Council of Colonels review will convene at least three weeks 
prior to convening the AMCB to refine the issue briefing, then a Flag 
review (one/two star level) will convene two weeks prior to ensure the 
issue is sufficiently developed and merits three-star consideration.
    4. Issue Resolution: SME team leaders will brief developed issues, 
analyzed Courses of Actions, and recommendations to the AMCB. The AMCB 
often will give guidance to the SME's as to recommended Courses of 
Action. Unresolved issues may be presented to the CSA and CMC for 
further adjudication and final resolution.
    Although in recent years topics have been coming into the AMCB to 
note where divergence exists between the two services. These briefs 
were to make leadership aware of why divergence between the services 
existed and to explain its cause and necessity.
    b) Approximately 8-10 times a year
    c) I would say some of the major results of AMCB's have been:
    In the past 4 years:
    1. Agreement on Mine Resistant Ambush Protected (MRAP) vehicle 
requirements and subsequently the MATV requirements.
    2. Agreement on the Joint High Speed Vessel (JHSV) requirements.
    3. Continued collaboration on body armor and helmet requirements.
    4. Continued collaboration on small arm requirements.
    5. Convergence on Service ammunition requirements.
    Currently:
    1. Defining of the Joint Light Tactical Vehicle (JLTV) 
requirements.
    2. Continuation of refining Command and Control/Situational 
Awareness (C2/SA) requirements and solutions.
    d) No, joint requirements are not generated by the board. While 
Joint requirements are not generated at the Army Marine Corps Board, 
the forum serves as a tool for collaborating and discussing Service and 
or Joint requirements that impact both land components.
    Mr. Bartlett. What impact is the continuing resolution (CR) having 
on equipping and modernization strategies for dismounted soldiers and 
marines?
    General Kelley and General O'Donohue. Now that the FY11 
appropriations bill has passed, we do not anticipate any difficulty 
with our equipping or modernization strategies for the remainder of the 
fiscal year.
    Mr. Bartlett. In your opinion do we need to shift the program 
investment focus from the platform to the person? How can we help you 
to accelerate the innovation process for individual equipment?
    General Kelley and General O'Donohue. The Marine Corps' focus is to 
equip Marines to perform the missions and tasks required of them. 
Investing in equipment without consideration of the impact on a 
Marine's ability to accomplish required tasks can lead to overburdened 
Marines and reduced mission-effectiveness.
    To help make mission-informed equipping investment decision, we 
have established a Marine Expeditionary Rifle Squad (MERS) integration 
facility called Gruntworks. Gruntworks characterizes how components of 
a Marine's equipment influence combat performance in terms of weight, 
bulk and flexibility and seeks to better integrate fielded equipment 
and soon to be fielded equipment on the individual Marine in a more 
ergonomic way. This effort also provides a metric for mobility in 
various equipment configurations for the evaluation of future systems.
    The MERS Program Manager does not procure equipment, but works 
instead with all of the Program Managers within Marine Corps Systems 
Command to ensure individual items are integrated into an effective 
combat fighting capability with a balanced redundancy within the squad. 
MERS is unique in that its performance metrics are not cost, schedule 
and performance, but rather the effectiveness of the Marine squad, user 
acceptance of the equipment provided and the increase in mobility of 
Marines in combat.
    In the future, the Marine Corps plans to pursue a fully integrated 
infantry system of equipment that will be driven by an overarching 
requirement. Such a requirement will drive integration of capabilities 
more effectively at the requirements level instead of trying to 
engineer it during material development. The Marine Expeditionary Rifle 
Squad Capabilities Development Document will define a requirements 
``box'' in which all capabilities necessary for the Marine Rifle Squad 
and individual infantryman must fit. This requirement will define 
parameters for size, weight, power, interfaces, and integration as well 
as set goals for weight reduction from current capabilities. The first 
increment of this capability will seek to better integrate the 
capabilities being fielded now or in the near future; the second 
increment will leverage emerging technologies to define attributes for 
the baseline load bearing, protection, and power systems and will 
require that all additional capabilities be fully integrated with those 
baseline systems. This will reduce or eliminate the need for additional 
capabilities to have their own power, cabling, and carrying pouches, 
thereby reducing the bulk and weight of the requisite combat load. The 
Army is taking a similar approach, and the requirements and acquisition 
communities in both services are sharing their ideas to collaborate 
where their interests coincide.
    Congress can best support the innovation process for individual 
equipment through continued funding of science and technology research 
and development efforts that pursue innovative materials that provide 
equal or greater capability at reduced weight and support a shift in 
emphasis to a systems approach vice the development of separate, stand 
alone capabilities.
    Mr. Bartlett. How are you effectively managing the power 
consumption problem for the individual soldier and marine?
    General Kelley and General O'Donohue. There are multiple efforts 
taking place to address effective management of power consumption at 
the individual Marine level. One such effort is the Solar Power 
Adaptors for Communications Equipment (SPACES). Solar power adaptors 
not only solve power consumption issues by offering rechargeable power 
to the Marine on the move, but also contribute to lightening the load 
of the warfighter by reducing the amount of batteries carried by the 
Marine. This innovative equipment has been fielded to squads as a 
reusable energy source for rechargeable batteries. As we work towards 
centralizing power, standardizing power and reliably distributing 
power, the potential to reduce the reliance upon the multiple types of 
batteries that are currently used in systems and carried in large 
quantity as spares is significant.
    On 13 August 2009, the Commandant of the Marine Corps (CMC) 
declared energy a top priority for the USMC. On 1 October 2009, the CMC 
created the USMC Expeditionary Energy Office (E2O) with the mission to 
``analyze, develop, and direct the Marine Corps' energy strategy in 
order to optimize expeditionary capabilities across all warfighting 
functions.''
    Additionally, the Marine Corps is the transition sponsor for a 
Squad Electric Power program, a Science and Technology initiative 
currently underway with the Office of Naval Research. This initiative 
began in 2011. It will address a future integrated power approach that 
notionally utilizes a central power source for all Marine-worn power 
consumers (tactical radios, intercom, global positioning system, 
optics), with the goal of weight reduction and energy reduction.
    The Marine Corps will continue to work with all other Services, and 
Department of Defense agencies in standardization of power sources, 
with the goal of reducing unique batteries and other power sources that 
are logistically difficult to support.
    Mr. Bartlett. Do you consider body armor to be a consumable and in 
the same category as articles of clothing? If yes, then why? Please 
elaborate on your response.
    General Kelley and General O'Donohue. Yes, we consider body armor 
to be a consumable item because of its short life cycle.
    In comparison, the way that body armor is used and replenished is 
similar to that of unit issued clothing. Further, body armor is not 
generally repairable. If it is damaged, body armor is disposed and a 
replacement is provided. Additionally, treating body armor as a 
consumable allows the Marine Corps to procure new technologies to meet 
changing enemy threats.
    Mr. Bartlett. Does the Army and Marine Corps currently have a 
validated requirement for lighter-weight body armor systems? What are 
your current requirements for body armor?
    General O'Donohue. Yes. The overarching requirement for body armor 
in the Marine Corps is the Family of Body Armor Operational 
Requirements Document (FBA ORD). This requirement resulted in the 
fielding of the Outer Tactical Vest (OTV) and contains the protection 
requirements for all subsequent body armor systems, as well as the 
Enhanced Small Arms Protection Inserts (ESAPI) and side plates.
    The Urgent Statement of Need for the Outer Tactical Vest 
Enhancement resulted in fielding of the Modular Tactical Vest (MTV), 
which provided improved features and fit over the OTV. The Improved 
Modular Tactical Vest (IMTV) will replace the MTV in the next fiscal 
year. The IMTV provides a seven percent reduction in weight and 
improves fit and ease of use.
    The Urgent Statement of Need for an ESAPI Carrier resulted in 
fielding of the Scalable Plate Carrier (SPC), which provides somewhat 
reduced protection against shrapnel while maintaining protection 
against direct fire in exchange for weight savings and increased 
mobility. The Statement of Need for the Plate Carrier provides for the 
replacement of the SPC with improvements such as more commonality with 
the IMTV and better fit while maintaining the savings in weight and 
mobility. We plan to field this capable later this year.
    Even with the advancements made in the fielding of subsequent body 
armor systems, the objective protection and mobility goals for the 
Family of Body Armor ORD have yet to be achieved. We are currently 
involved in the Army's effort to develop a requirement to replace the 
current multiple body armor systems with a single, modular solution 
that incorporates the latest materials for soft and plate armor 
protection to bring us closer to achieving the protection and mobility 
both Services desire. We intend to rapidly procure new body armor 
systems as technology matures to meet both protection and overall 
mission requirements.
    Mr. Bartlett. Does the Army and Marine Corps currently have a 
validated requirement for a new handgun system? Are you currently 
reviewing such a requirement?
    General O'Donohue. Yes. We participated with the other Services in 
the development and validation of an Air Force-led Modular Handgun 
System requirement. We are conducting a capability assessment that will 
inform future investment decisions for a new handgun capability.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MRS. ROBY
    Mrs. Roby. At what stage in the acquisition process is improved 
groin protection against a dismounted IED threat and what methods are 
being considered to further protect our Servicemembers?
    Mr. Markowitz. Current efforts being conducted for improved groin 
protection are not part of a formal acquisition process. They are being 
done in response to a 10 Liner request from a brigade in OEF that 
requested that the Army Rapid Equipping Force field multiple pelvic 
protection solutions to a battalion-sized unit for a 90 day evaluation. 
The Army currently provides Soldiers with a groin protector that 
connects vertically to the bottom front of the Improved Outer Tactical 
Vest and is interchangeable with the Soldier Plate Carrier System.
    PEO Soldier is working with the Rapid Equipping Force to field a 
number of improved groin protection designs for the evaluation 
described above. These include the United Kingdom (UK) Army's Tier 1 
silk boxer shorts that will go to a U.S. Army unit in June 2011. These 
shorts are designed to prevent debris from blast events to become 
embedded into soft tissue thus mitigating infection. PEO Soldier worked 
with several DOD agencies to quickly assess a number of commercial off-
the-shelf protection products which could mitigate injuries from dirt 
and small fragments that are blown into the pelvic area during an IED 
event. The ballistic performance of these products was assessed at Army 
and Navy test facilities.
    Concurrently, PEO Soldier conducted a Soldier evaluation of a 
variety of those same protection products at the Maneuver Battle 
Laboratory, Fort Benning, GA, in order to obtain feedback on 
wearability and comfort. Both male and female Soldiers participated in 
the evaluation. The results of the Battle Lab evaluation, and the 
Safety Confirmation Testing, will be used to down select to multiple 
configurations which will be fielded to OEF in July 2011
    In addition to the efforts described above to support the 10 Liner, 
the Natick Soldier Research Development & Engineering Center began 
evaluating multiple ways to provide a meaningful level of protection 
for both males and females. Efforts focus on how this area of the body 
can be armored (i.e., protective undergarments, external overgarments, 
etc.). In addition, researchers will look at the effect that these 
garments have on Soldier mobility, comfort, thermal load, hygiene, etc.
    Mrs. Roby. I understand that the Army had an estimated 267,000 
night vision goggles (NVGs) in the inventory in 2003, and now has 
approximately 681,000 NVGs in its inventory in 2011. The large increase 
in procured systems occurred in response to evolving requirements 
associated with Operation Enduring Freedom and the Operation Iraqi 
Freedom. As you know, industrial base capacity had to be expanded to 
meet these increased requirements, since only a limited number of 
companies exist capable of producing this technology. Given the 
constrained budget environment, what concerns do you have about the 
ability to maintain NVG production capacity and technological 
capability? What are your respective services' research & development 
and procurement budgets for NVGs in the FY 12 budget request, as well 
as within the future years defense program?
    General Fuller. Night vision systems afford our Warfighters 
unmatched situational awareness, yielding improved survivability and 
lethality in all operational environments. Based on the volume of 
systems already procured, the Army does foresee a significant reduction 
in production quantities for most current night vision technologies. 
Army production deliveries are on schedule to complete in 4th Quarter 
of Fiscal Year 2012 (4QFY12). Current estimates indicate that FY13-FY17 
Image Intensifier Tube sustainment quantities are less than 50 percent 
of peak production and less than pre-facilitization quantities beyond 
FY17. Other night vision technologies are also experiencing completion 
of the Department of Defense (DOD) requirements and reduction in 
demand. These changes in demand level raise the following concerns:
    a. Potential cost increase due to lower sustainment volume.
    b. Potential workforce reductions and industrial base consolidation 
due to reduced need-thus impacting competition.
    c. Potential shift of industrial focus to lower performance Night 
Vision Goggle Systems designed for Commercial and Foreign Military 
Sales, increasing industrial viability and market share. This shift of 
focus may result in reduced capability and/or willingness to meet DOD's 
higher performance requirements.
    d. Decreased ability for industry to respond to DOD urgent 
requirements based on loss of expertise and hi-performance production 
capability.
    In FY12 there is a $9.8 million dollar request in Research, 
Development, Test and Evaluation for Soldier night vision devices. This 
development effort will support completion of product qualification 
testing on the current Enhanced Night Vision Goggle (ENVG). It will 
also support integration, testing, and evaluation of technologies to 
further enhance night vision and provide interoperability with other 
systems such as the Thermal Weapons Sight and Nett Warrior. In 
addition, the FY12 budget request includes $117.4M in procurement for 
ENVG. This will be used for the continued procurement of ENVG.
    Mrs. Roby. What improvements are being made in the area of power 
supply for the dismounted Servicemembers' individual equipment worn on 
the battlefield?
    General Fuller. The Army is investigating a variety of 
expeditionary power alternatives that provide the squad with man-
portable power that will allow the Soldier to power his equipment or 
charge his batteries in the most austere operating environments. These 
potential solutions include, but are not limited to, Soldier portable 
fuel cells (methanol, propane), renewable energy systems (solar, wind, 
hydro, and energy harvesters), multi-fuel generators, and universal 
battery chargers. Innovation in battery chargers has made it possible 
for the Squad to carry fewer chargers for the variety of batteries 
being carried by the Warfighter.
    With funding, these expeditionary power solutions will allow for 
extended mission duration while reducing the unit logistics 
requirement.
    Mrs. Roby. What is the path forward to making the NettWarrior a 
joint program?
    General O'Donohue. The Marine Corps has been involved with both the 
Land Warrior and Nett Warrior Increment 1 programs from the beginning, 
participating as a member on the Source Selection Evaluation Boards for 
each. Involvement with Land Warrior included membership in Integrated 
Product Teams, participation in design reviews, observing trials, and 
utilizing Land Warrior in a Marine user evaluation at Camp Lejeune, NC.
    We have had similar involvement with Nett Warrior Increment 1 to 
include the procurement of 15 Nett Warrior systems on the Army contract 
in order to allow the Marine Corps to conduct user evaluations and 
capability analysis independently. The Marine Corps concept has been to 
leverage capabilities from the Nett Warrior system that will provide a 
relevant capability to the Marine Corps. This collaboration in testing 
and evaluation provides the knowledge for informed decisions on which 
capabilities to leverage without the complexity of a joint acquisition 
program.
    The Marine Corps is currently a participant in the Joint Battle 
Command Platform (JBC-P) program which provides a similar capability to 
Nett Warrior Increment 1, but in a handheld form factor. Based on the 
Marine preference to pursue a handheld device, we are working with the 
US Army to develop the JBC-P handheld as the program of record to 
provide for a small unit situational awareness capability. The Army 
Program Manager for Nett Warrior is also the hardware Program Manager 
for JBC-P, and their intent is to use JBC-P as part of the technology 
insertions for Nett Warrior in the future.
    Future decisions to procure the full Nett Warrior will be dependent 
on the outcome of evaluations and assessments against Marine Corps 
mission requirements.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. WILSON
    Mr. Wilson. In the hearing on March 17, you alluded to the fact an 
Analysis of Alternatives should have been performed prior to the 
announcement of an individual carbine competition. However, you chose 
to request a waiver, which was approved by the Secretary of the Army. 
In the interest of seeing how these conclusions were drawn, will you 
please provide me and the Committee with the waiver justification, as 
well as any other information you submitted that the Secretary's 
decision was based upon?
    General Fuller. The Army waived an Analysis of Alternatives (AoA). 
It was determined that an AoA would not produce relevant information in 
support of the program, since the Key Performance Parameters and Key 
Systems Attributes were baselined on the current M4 Carbine, as 
directed by the Army Requirements Oversight Council. In addition, an 
extensive Capabilities-Based Assessment on small arms requirements and 
gaps had just been completed in 2008. In 2009, the Under Secretary of 
Defense (Acquisition, Technology and Logistics) completed a Joint 
Assessment Team for small arms. All the Services participated in the 
assessment. This team concluded that with a multitude of potential 
materiel solutions available, product improvement programs and 
performance-based competitions are appropriate to address the 
alternatives. In order to determine the most prudent path forward, the 
Army will conduct a Business Case Analysis using actual data collected 
during the Test and Evaluation of the Individual Carbine candidate at 
the conclusion of the Commercial-off-the-Shelf competition. Attached is 
the request and approval for the waiver of the AoA for the Individual 
Carbine. [The attachment can be found on page 83.]
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. CRITZ
    Mr. Critz. Has the Army approved the requirement for the Soldier 
Wearable Acoustic Targeting System (SWATS)? If not why not?
    Mr. Markowitz. The Army has approved a directed requirement for 
14,900 SWATS for use in Operation Enduring Freedom to evaluate the 
system's performance. The Individual Gunshot Detection (IGD) Capability 
Production Document (CPD) has not been approved at this time due the 
pending assessment of production line representative systems. The IGD 
CPD, currently in staffing is on deferred status. As agreed at the last 
1-2 star AROC on Soldier Systems, IGD CPD would be deferred until the 
next generation of the system is evaluated in theater to inform CPD 
development. Poor performance of the earlier system raised questions on 
CPD key performance parameters and system attributes. A deliberate hold 
on staffing will remain in effect until the completion and HQDA review 
of an ATEC assessment of the next generation of Soldier Wearable 
Acoustic Targeting Systems (SWATS) currently headed to theater under 
the directed requirement.
    Mr. Critz. Why has it taken so long to approve the requirement for 
SWATS considering the fact the VCSA made counter sniper a priority in 
early 2006?
    Mr. Markowitz. Development of the capability was initially slow due 
to assessed low Technology Readiness Levels (TRL) during a Proof of 
Concept in 2004 and poor performance of the first systems fielded. The 
Army signed a directed requirement in September 2009 which has enabled 
the procurement and fielding of 14,900 Soldier Wearable Acoustic 
Targeting System (SWATS) to meet field requirements. Fielding of these 
systems began in March 2011 and New Equipment Training (NET) is 
currently taking place. A capability production document (CPD) is in 
deferred status until such time as an assessment of production quality 
representative systems can be completed by the Army Test and Evaluation 
Command (ATEC).
    Mr. Critz. What is the Acquisition Objective and Basis of Issue 
Plan for the Soldier Wearable Acoustic Targeting System (SWATS)?
    Mr. Markowitz. SWATS is the name of a particular individual gunshot 
detection solution. The actual program name is the Individual Gunshot 
Detection (IGD). Based on the draft IGD Capability Production Document, 
the projected Army Acquisition Objective for the IGD is 15,736.
    Below is the BOIP for the IGD.----------------------------------------------------------------------------------------------------------------
 Brigade Combat Team                                  Army Force Generation Fiscal Year
     (BCT) Type               Sensors per BCT                     2013-2015                       TOTAL
----------------------------------------------------------------------------------------------------------------
Infantry BCT/Ranger   600                             11                                 6,600
----------------------------------------------------------------------------------------------------------------
Stryker BCT           600                             4                                  2,400
----------------------------------------------------------------------------------------------------------------
Heavy BCT             400                             6                                  2,400
----------------------------------------------------------------------------------------------------------------
CAB/SF                542                             8                                  4,336
----------------------------------------------------------------------------------------------------------------
                      Total                           29                                 15,736
----------------------------------------------------------------------------------------------------------------


    Mr. Critz. Why did it take the Army until October, 2010 to award 
the contract for the majority of Soldier Wearable Acoustic Targeting 
System (SWATS) considering the funds were appropriated at the Army's 
request in the emergency supplemental in June, 2009?
    General Fuller. Soldier Wearable Acoustic Targeting System (SWATS) 
is the name of a particular individual gunshot detection solution. The 
actual program name is the Individual Gunshot Detection (IGD). The Army 
G-3 approved a directed requirement in lieu of the IGD Capability 
Production Document (still in draft) after the Infantry Army 
Requirements Oversight Council met on 24 September 2009. This directed 
requirement gave the Army the authority to enter into contracts for the 
IGD capability. On 20 January 2010, the U.S. Army Research, Development 
and Engineering Command Contracting Center, Aberdeen Proving Grounds, 
Maryland, issued the IGD solicitation (W91CRB10T0027). This 
solicitation sought offerors with mature technology that would satisfy 
the IGD threshold technical criteria and the ability to provide 
production quantities. Project Manager Soldier Sensors and Laser's IGD 
contract acquisition strategy consisted of a Full and Open Competition, 
to include an operational evaluation, with an award based on the best 
value analysis of all offerors' systems. From March to July 2010, the 
Army Test and Evaluation Command conducted an Operational Evaluation of 
three IGD systems, which met the threshold criteria. After contracting 
activities and source selection, a production contract award was made 
on 29 October 2010 for 10,000 to 13,000 IGD systems. Initial fielding 
in Operation Enduring Freedom began on 29 March 2011.
    Mr. Critz. Based on your experiences as PEO Soldier, do you have 
any recommendations on how this committee can provide additional 
flexibilities to make the acquisition process more responsive to our 
soldiers in combat?
    General Fuller. At this time we believe we have the flexibilities 
within the existing process to accomplish our mission in a responsive 
manner. However, the Secretary of the Army has chartered a broad review 
of the acquisition process and those recommendations will help inform 
prudent reforms to the system.

                                  <all>

</pre></body></html>
